<html>
<title> - CLIMATE CHANGE IN COASTAL REGIONS</title>
<body><pre>[Senate Hearing 110-522]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-522
 
                   CLIMATE CHANGE IN COASTAL REGIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

  EXAMINE THE IMPACTS OF CLIMATE CHANGE ON THE RELIABILITY, SECURITY, 
  ECONOMICS, AND DESIGN OF CRITICAL ENERGY INFRASTRUCTURE IN COASTAL 
                                REGIONS

                               __________

                              MAY 13, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-709 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Burkett, Virginia, Chief Scientist for Global Change Research, 
  Geological Survey, Department of the Interior..................     9
Corker, Hon. Bob, U.S. Senator From Tennessee....................     3
Craig, Hon. Larry E., U.S. Senator From Idaho....................     2
Drevna, Charles T., President, National Petrochemical & Refiners 
  Association....................................................    23
Edgar, Lisa Polak, Commissioner, Florida Public Service 
  Commission, Tallahassee, FL....................................     3
Falgout, Ted, Port Director, Port Fourchon, LA...................    21
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............    21
Martinez, Hon. Mel, U.S. Senator From Florida....................     4
Wallace, Terry, Principal Associate Director For Science, 
  Technology and Engineering, Los Alamos National Laboratory, Los 
  Alamos, NM.....................................................    16
Wilbanks, Thomas J., Oak Ridge National Laboratory, Oak Ridge, TN     5












                                APPENDIX

Responses to additional questions................................    51


                   CLIMATE CHANGE IN COASTAL REGIONS

                              ----------                              


                         TUESDAY, MAY 13, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:47 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. I'd like to go ahead with the hearing at this 
point, welcome everyone here today, and thank the witnesses who 
are testifying before the committee.
    This is an oversight hearing on climate-change impacts on 
our energy infrastructure.
    Over the last 4 years, the world has witnessed, through 
numerous tragedies, the vulnerability of low-lying coastal 
regions to natural hazards, including, of course, the tragedy 
that happened in Burma last week. It's expected that within the 
next 50 years, we will see accelerated sea-level rise, 
increased storm intensity, and significant coastal erosion. The 
consequences of these events should not be underestimated.
    As a Nation, we've begun to consider mitigation efforts 
aimed at reducing greenhouse gas emissions, as it's now 
generally accepted that some level of climate change is 
occurring. While much of our attention has been focused on how 
our current mix of energy resources and technologies 
contributes to climate change, there has been little focus so 
far on how changes in climate will affect our current and 
future energy needs. I'm concerned that in many communities 
facilities are being developed without adequate consideration 
of the potential cost of protecting or relocating them from 
sea-level-rise-related erosion and flooding and storm damage. 
Much of our energy infrastructure has been built based on our 
knowledge of historical climate conditions, but since our 
climate is changing, energy infrastructures which are optimal 
today may not be, in the future.
    The longevity of our infrastructure argues for us to look 
long-term in the planning and design of new systems. Decisions 
made today for the creation of new infrastructure need to occur 
in ways that ensure that such infrastructure is robust enough 
to cope with or adapt to changing climate conditions.
    In the latest report that it issued, the Intergovernmental 
Panel on Climate Change states that it's very likely that we 
will see stronger, more destructive hurricanes and typhoons, 
accelerated sea-level rise, and changing weather patterns in 
coming years. A significant portion of our Nation's critical 
energy infrastructure is concentrated in coastal areas that are 
vulnerable to natural hazards and changes in climate. This 
infrastructure forms the heart of a nationally and globally 
interdependent energy system.
    Our own experience with the Gulf Coast hurricanes in 2005 
demonstrated the vulnerability of our energy systems and the 
magnified nationwide effects that a localized disruption can 
create. Nearly a third of our Nation's refining capacity was 
closed. That was in 2005. There was a significant loss of 
natural-gas supplies in the Gulf of Mexico. The disruptions 
increased United States energy prices and threatened to create 
significant shortages of fuel for home heating and electric 
power generation in New England. There's currently a need to 
consider how to incorporate future changes in environmental 
conditions as new infrastructure expansion plans are developed 
and implemented. Today, we'll hear testimony on what's needed 
to create a more resilient and adaptable infrastructure in 
response to the inevitable impacts and challenges that climate 
change will present.
    Let me just see if Senator Craig wished to make an opening 
statement before we go to the witnesses.
    [The prepared statement of Senator Domenici follows:]

    Prepared Statement of Hon. Pete V. Domenici, U.S. Senator From 
                               New Mexico
    Good morning, I want to thank Chairman Bingaman for holding this 
hearing and I thank the witnesses for being here today.
    There is no question that we must strengthen our infrastructure and 
expand our ability to produce energy. Whether it is climate change, 
population growth, global economic growth, or a combination of those 
factors, the need to invest significantly in our future energy security 
is apparent. It is clear that the coastal States can and should play a 
significant role in this effort--many of them already are.
    We must reduce greenhouse gas emissions, and I believe we have 
taken several steps in the right direction on this front. That having 
been said, we must do more. I remain unconvinced that cap-and-trade is 
the right policy option to achieve our goals, however.
    Consistently, every single analysis done of legislation to cap 
carbon dioxide emissions concludes that it will increase the cost of 
energy for Americans. At a time when Americans are suffering daily from 
the consequences of high energy bills, policies that add to this burden 
are exactly the type we must avoid.
    There are alternative approaches, and some of them have been signed 
into law--including the 2005 Energy Policy Act and the 2007 Energy 
Independence and Security Act. Those bills created first-of-a-kind 
incentives for nuclear power, renewable sources of electricity, and 
strengthened our efficient use of everything from automobiles to 
dishwashers.
    We can do more, and it is for that reason that I have introduced 
legislation to create the Clean Energy Investment Bank of the United 
States. I am hopeful that we can continue to move forward on proposals 
that achieve our goal of reducing greenhouse gas emissions without 
harming the American economy. This effort is of paramount importance, 
not only to our coastal states, but to the entire country.
    I thank you again, Mr. Chairman, for scheduling this hearing and I 
look forward to hearing from the witnesses.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you very much. Most 
importantly, thank you for doing the kind of oversight on this 
issue that is so very, very necessary.
    You've said it well. Today, our energy is delivered on an 
energy system that was built between 1947 and 1975, after World 
War II. Increasing growth in energy demand will just put more 
pressure on our old, badly deteriorated, and, in some 
instances, obsolete infrastructure. The Energy Information 
Agency forecasts that total energy consumption will increase by 
19 percent over 2030--or, by 2030. We consistently have 
blackouts. Recent blackouts in the Northeast and in California 
highlight how fragile our Nation's existing power grid is. 
Generation capacity has been added, mainly by natural gas, but 
there has been little expansion in the transmission network. 
Here, they tell us the average age of power transformers in 
service is 40 years. This aging transmission infrastructure is 
also of some concern, as its vulnerability relates to terrorist 
attacks. I know we're going to hear from some of our lab people 
today. New Mexico and a lab in Idaho are working with DOE and 
Homeland Security to identify and fix these vulnerabilities. 
Limited domestic refinery capacity is impacting gasoline 
prices. It goes on and on, at a time when our country isn't in 
the business of needing less energy, it is in the business of 
needing more energy, not only to sustain our lifestyles, but to 
sustain our growth and now to sustain an ever-growing desire to 
have a cleaner environment. All of that requires energy in 
somewhat different forms than what's currently being produced 
today, and all of that infrastructure services those needs as 
it relates to greenhouse gas emissions, climate-change 
concerns, and a cleaner environment.
    Thank you, Mr. Chairman.
    The Chairman. Before I introduce the panel, let me call 
on--Senator Corker would like to introduce one of the 
witnesses, and Senator Martinez, as well, and Senator Landrieu, 
when she arrives.
    So, Senator Corker, why don't you go ahead.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you. Thanks for your 
leadership on this committee.
    It is my pleasure to introduce the distinguished witness 
from the Oak Ridge National Laboratory who's here to testify. I 
know all of us have some great talent in our States. He's one 
of the best. He is a corporate research fellow and scientist, 
Dr. Tom Wilbanks. Tom leads the lab's Global Change and 
Developing-Country Programs. Tom shared in the 2007 Nobel Peace 
Prize as a coordinating lead author in the Working Group, too, 
of the Intergovernmental Panel on Climate Change, a project I'm 
sure that many of you have heard a lot about. Tom is a past 
president of the Association of American Geographers, one of 
only three non-academics in the last 100 years. I don't know 
what that says about the organization or you, Tom, but we're 
certainly glad that you led it. He's been awarded a number of 
honors in that field.
    Tom, we thank you for being here today and representing, 
not just our State, but our country, in this world the way you 
do.
    Thank you very much.
    The Chairman. Thank you very much.
    Senator Martinez.
    Senator Craig. Mr. Chairman, before you got to Mel, let me 
apologize. I mentioned New Mexico, Los Alamos, Idaho, the INL, 
and I failed to recognize that Tom, with the phenomenal lab at 
Oak Ridge, was here. Welcome.
    The Chairman. Senator Martinez.

         STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR 
                          FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much. This 
is a timely and important topic, and I appreciate you holding 
this hearing.
    I'm very pleased today to introduce Lisa Edgar, from the 
wonderful State of Florida. She is with the Florida Public 
Service Commission. Ms. Edgar is a former chairman of the PSC, 
and she's currently serving on the Governor's Action Team on 
Energy and Climate Change, where our Governor has taken a very 
forward-leaning position, and obviously Florida is leading the 
way. Unfortunately, Florida has had a long history of dealing 
with natural disasters, but our State also has been a leader on 
emergency preparedness and prevention efforts. Just yesterday, 
we had terrible wildfires that seem to have taken a number of 
homes in Brevard County and coastal area on the Atlantic Coast 
of Florida. Terrible situation. But, the PSC has taken a strong 
multifaceted approach through requiring utilities across the 
State to submit hurricane- season preparedness briefings, 
perform regular inspections on infrastructure, and implement a 
ten-point storm preparedness initiative.
    We've been blessed in Florida to have talented people and 
public servants like Ms. Edgar leading our regulatory agencies. 
She's held numerous other positions throughout the State, in 
State government, before joining the Public Service Commission, 
and she also served as deputy secretary of the Florida 
Department of Environmental Protection.
    On a really side and personal note, of great importance to 
me is the fact that she is a graduate of Florida State 
University, as an undergraduate and law grad, where we happened 
to have been walking on similar hallways. So, we're delighted 
that you would have the good judgment to bring up a Seminole to 
testify up here.
    So, Lisa, we're glad to have you and welcome you to the 
committee.
    Ms. Edgar. Thank you.
    The Chairman. All right. Let me just introduce the rest of 
the panel, and then we'll hear from the witnesses.
    Virginia Burkett is here, and she's the chief scientist of 
the Global Change Programs with the United States Geological 
Survey. Thank you for coming.
    Terry Wallace, from--who's a regular witness here at our 
committee, and a good friend, and does a great job at Los 
Alamos National Laboratory as the principal associate director 
for science, technology, and engineering at Los Alamos National 
Laboratory.
    Ted Falgout--and Ted is the executive director with Port 
Fourchon in Galliano, Louisiana.
    Charles Drevna is here, the president of the National 
Petrochemical and Refiners Association in Washington, DC. 
You've been a witness before us before, and thank you for being 
here again.
    Lisa, you were already introduced, as were you, Dr. 
Wilbanks.
    So, why don't we start with Dr. Wilbanks and just go across 
the table with each of you giving us 5 or 6 minutes of the 
highlights of your testimony. We'll include your full statement 
in the record.
    We do have 4 votes that begin at 11 o'clock, and so, if you 
folks could summarize your testimony, and then we will 
hopefully have some time for at least a few questions before we 
have to conclude the hearing and do those four votes.
    Dr. Wilbanks, thanks for being here.

STATEMENT OF THOMAS J. WILBANKS, OAK RIDGE NATIONAL LABORATORY, 
                         OAK RIDGE, TN

    Mr. Wilbanks. Thank you, Mr. Chairman, Senator Corker--my 
Senator--distinguished members of the committee.
    As you know very well, we've heard a lot over the past 
decade and a half about the energy sector as a reason for the 
large share of the carbon emissions that are a cause of climate 
change, but we've heard very little about how the energy sector 
might be impacted by climate change when those impacts could be 
considerable.
    A couple of years ago, the Interagency Climate Change 
Science Program commissioned the first comprehensive assessment 
of these climate-change risks and vulnerabilities for the 
energy sector in the United States I'm going to summarize what 
this assessment found out about implications of climate change 
for critical energy infrastructures in coastal regions. But, 
let me first update the context for thinking about these kinds 
of risks and vulnerabilities.
    In the past several years, scientists observing what's 
happening with global climate change have noticed two things. 
Number one, physical impacts of climate change are emerging 
faster than was projected even 7 or 8 years ago. Number two, 
greenhouse gas emissions worldwide are increasing faster than 
what had been assumed in any climate-change scenario we've ever 
taken seriously. When we put these two observations together, 
our conclusion is that risks of relatively severe climate 
change are greater than we've been projecting. These two facts 
suggest that the kinds of implications I'm going to mention 
could, by the mid to longer terms at least, become pretty 
serious.
    Okay, the main impact concerns, aside from Alaska, are two. 
First, severe storms, along with some sea-level rise, and 
second, water availability. But, the big issues differ 
according to the coastal region. For the Gulf Coast, Florida 
and the rest of the Coastal Southeast, the main concern is with 
the intensification of severe weather events, along with 
severe--with sea-level rise, which threaten the reliability and 
security of critical oil, gas, and electricity infrastructures, 
both onshore and offshore.
    Other important concerns for this region are significantly 
higher demands for electricity for cooling as temperatures 
rise, and possibly some seasonal water shortages for cooling of 
power plants inland to supply electricity for coastal areas.
    For the Coastal Northeast, the main concern is with coastal 
flooding from severe weather events, along with increased 
demands for air conditioning and electricity for cooling.
    For the West Coast, the main concern is with decreasing 
freshwater availability from spring and summer snowmelts in the 
western mountains, increasing competition for scarce water 
between energy and other uses, possibly affecting electricity 
availability for coastal development, the energy-water nexus 
that this committee knows a lot about.
    For Alaska, the main effects, not all necessarily negative, 
depending on one's point of view, include effects on energy 
infrastructures of the thawing permafrost, which are already 
being observed, effects on oil and gas exploration and 
production, which might get easier in some ways, and effects of 
ice-cap melting on energy transport along the North Slope, 
which could be interesting.
    These very brief comments just touch on the high points of 
what we think we know, but I hope they're a useful start for 
the rest of the hearing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wilbanks follows:]

     Prepared Statement of Thomas J. Wilbanks, Oak Ridge National 
                       Laboratory, Oak Ridge, TN
    Mr. Chairman, distinguished members of the Committee, I thank you 
for your interest in the issues being discussed at this hearing, and I 
appreciate the invitation to join you this morning.
                              introduction
    As you know very well, we have heard a lot over the past decade and 
a half about the energy sector as a driver of climate change: the 
reason for a large share of the carbon emissions that are a cause of 
climate change. But we have heard very little about the energy sector 
as a target of impacts of climate change. The fact is that energy 
production and use in the United States and the world are going to be 
affected by climate change, and our objectives of assuring the 
reliability, affordability, and security of energy services for the 
American population depend partly on recognizing possible risks and 
vulnerabilities and taking actions to reduce those risks and 
vulnerabilities.
    In the summer of 2005, as one element of producing 21 summaries of 
what we know and don't know about issues for climate change science, 
the nation's Climate Change Science Program (or CCSP) commissioned the 
first comprehensive assessment of these climate change risks for the 
energy sector in the U.S. I had the honor of leading the team that 
prepared it, under the auspices of DOE's Office of Science, along with 
serving as Coordinating Lead Author for the chapter of the recent IPCC 
Fourth Assessment report that dealt with energy sector impact issues, 
also supported by DOE. The CCSP report was completed last fall (see 
http://www.climatescience.gov/), and I briefed the Senate and House 
staffs about its conclusions last October.
    What I would like to do, to serve as a foundation for the other 
testimony to come, is to summarize what this assessment found out about 
effects of climate change on energy production and use in the United 
States, including but not limited to energy infrastructures in 
vulnerable coastal regions. Before I move on to that, let me observe 
that our knowledge about impacts of climate change on energy production 
and use is limited by the fact that this topic has not been the focus 
of very much research to date, beyond a few issues such as effects of 
warming on energy use in buildings; so what I will say is only a 
beginning. But I think it does point us toward some issues that need 
further attention as a basis for our risk management strategies.
    The CCSP energy sector impact assessment has been labeled Synthesis 
and Assessment Product (SAP) 4.5; it was charged with answering three 
questions as best we could with currently available knowledge:

  <bullet> How might climate change affect energy consumption in the 
        United States?
  <bullet> How might climate change affect energy production and supply 
        in the United States?
  <bullet> How might climate change have other effects that indirectly 
        shape energy production and use in the United States?

    Here is a summary of the answers to those questions, paying 
particular attention to issues for coastal infrastructures:
                 effects on energy consumption and use
    About effects on energy consumption and use, it is clear that 
warming will reduce total U.S. heating requirements and increase U.S. 
cooling requirements for buildings. The research done so far indicates 
that the demand for cooling will rise 5 to 20% for each one degree 
Centigrade of average warming. The demand for warming will drop 3 to 
15% for each degree of warming. The ranges reflect different 
assumptions about such things as the rate of market penetration of 
improved energy-use technologies.
    Overall, because we use more energy for heating than for cooling in 
the U.S., the two effects roughly cancel each other out in terms of 
total energy requirements at a national scale, but this hides an 
important effect. Because nearly all of our cooling is supplied by 
electricity, while our warming comes from a combination of natural gas, 
fuel oil, and electricity, the warming associated with climate change 
will increase demands for electricity, especially in areas with a lot 
of demand for cooling and areas which have not historically done a lot 
of space cooling.
    Other effects of climate change on energy consumption, for instance 
for water pumping or for fuel in vehicles doing more interior cooling, 
are less clear, because that research has not yet been done.
    Obviously, in coastal areas of the U.S. Southeast, the projected 
increase in needs for electricity is an infrastructure issue. Recall 
that the first U.S. national assessment of climate change impacts, 
published in 2001 and based on relatively modest estimates of possible 
climate change, projected an increase in the July heat index in the 
Southeast by the year 2100 of between 8 and more than 20 degrees 
Fahrenheit. The increase in coastal areas would be less than the 
regional average, because of the moderating effect of the seas; but 
energy costs for comfortable living can be expected to increase and, 
combined with such other factors as greater discomfort in summer 
outdoor activities, higher risks of severe storms, and higher costs for 
private property insurance, could add stress to coastal economies and 
societies.
                effects on energy production and supply
    About effects of climate change on energy production and supply, 
the knowledge base is more limited, and--except for Alaska, where 
impacts are already being observed--our conclusions are based mainly on 
extrapolations from recent experience with climate variability, 
combined with relatively high-confidence projections of temperature and 
precipitation associated with climate change.
    Aside from Alaska, the main concerns are with:

          (1) increased exposure to severe weather events, especially 
        in storm-prone coastal areas, along with possible long-term 
        effects of sea-level rise that could have consequences for 
        facility siting, and
          (2) reduced water supplies for hydroelectric power and/or 
        thermal power plant cooling in regions that become drier or 
        that depend on diminished mountain snowfall for surface water 
        supplies

    Another effect of some concern is that, with warmer air and water 
temperatures, the overall efficiencies of thermoelectric power plants 
(fossil and nuclear) will be reduced. Although the percentage change 
for a particular power plant might be small, the aggregate impact could 
be significant: note that a one percent reduction in power generation 
nationally would mean a need to supply 25 billion kWh of additional 
electricity each year.
    Electricity transmission and distribution systems may also be 
affected by climate change, both in terms of the total demands for 
power movement (see above) and effects of weather on their reliability. 
The most familiar example is effects of severe weather events on power 
lines (e.g., from ice storms or tornadoes as well as hurricanes), but 
in the summer heat wave of 2006 electric power transformers failed in 
several areas, such as St. Louis and Queens, NY, due to high 
temperatures, causing interruptions of electric power supply.
    Finally, climate change could have effects on renewable energy 
alternatives other than hydropower, such as biomass energy, windpower, 
and solar energy. Currently available research does not tell us enough 
to draw firm conclusions about this topic, but it is important for us 
to improve the information available for energy decision-making in this 
regard.
             indirect effects on energy production and use
    The issue of possible indirect effects on energy production and use 
is an interesting one. It includes both impacts of climate change on 
other systems and infrastructures that in turn relate to energy 
demands, such as transportation and agriculture, and also impacts of 
climate change policy responses on energy systems and infrastructures. 
As you are acutely aware, some of these connections--such as possible 
effects on energy institutions, energy prices, and regional comparative 
advantage--are both politically charged and lacking in objective 
research; and SAP 4.5 does little more than note the questions. But the 
possibility of impacts, especially of climate change policies, is an 
issue that we need to keep in mind. Certainly, some of our energy 
institutions think that impacts on them of climate change policies 
could well be greater than impacts of climate change itself.
                            main conclusions
    Based on the knowledge available to us when we put SAP 4.5 
together, we came up with four main conclusions about effects of 
climate change on energy production and use in the United States:
    First, there is a range of impact concerns, which vary by energy 
source and region, but the general picture at this point is one of 
caution rather than alarm. Aside from Alaska, the main risks and 
vulnerabilities have to do with severe storms, especially in the 
Southeastern US, and water availability, an issue in most parts of the 
country but most directly for parts of the West that depend on winter 
snowfall in the mountains for spring and summer surface water supply.
    Second, with climate change effects likely to emerge over a period 
of some decades, we have time to consider strategies for adaptation to 
reduce risks of negative effects and take advantage of possible 
positive effects. The energy sector in this country is accustomed to 
change, including attention to weather variables, and it has both the 
fiscal resources and the management skills to incorporate climate 
change as an aspect of uncertainty in its longer-term strategic 
planning and investment. Potentials for adaptation are considerable.
    Third, we need to pay particular attention to regional implications 
of energy sector impacts, and I will conclude with a summary of 
implications for the coastal regions of the U.S.
    Finally, we simply need to know more abut these kinds of things 
than we know now, working through a rich collaboration among 
government, industry, NGOs, and academia. As with most other areas of 
interest in climate change impacts and adaptation potentials, we know 
too little at present to do more than sketch out a general picture of 
risks and vulnerabilities, when investment behavior needs better 
information than that. For example, we need to know more about 
potentials for power plant cooling approaches that are less water-
dependent, on technology improvements for affordable space cooling, and 
approaches for increasing the resilience of coastal and offshore oil 
and gas production systems to extreme weather events.
summary of implications for critical energy infrastructures in coastal 
                      regions of the united states
    Regarding what SAP 4.5 has to say about projected impacts of 
climate change on critical energy infrastructures in coastal regions in 
the United States, here is a very brief summary:
    Coastal Southeast.--intensification of severe weather events, 
threatening the reliability and security of critical oil, gas, and 
electricity infrastructures both onshore and offshore; significantly 
increased demands for electricity for cooling; possibly occasional 
seasonal water shortages for power plant cooling for facilities using 
freshwater systems inland.
    Coastal Northeast.--vulnerabilities to flooding from severe weather 
events, northeasters as well as hurricanes; increased demands for 
electricity for cooling, along with space heating savings; increased 
demands for air-conditioning.
    West Coast.--decreased freshwater availability from spring and 
summer snowmelt, increasing competition for scarce water between energy 
and other uses, possibly affecting electricity availability for coastal 
development.
    Alaska.--effects on energy infrastructures of thawing permafrost; 
effects on oil and gas exploration and production (possibly positive); 
effects of polar ice cap melting on energy transport, especially from 
North Slope development.
    This concludes my testimony this morning. Thank you, Mr. Chairman

    The Chairman. Thank you very much.
    Dr. Burkett.

   STATEMENT OF VIRGINIA BURKETT, CHIEF SCIENTIST FOR GLOBAL 
 CHANGE RESEARCH, GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Ms. Burkett. Yes, sir. Mr. Chairman and members, thank you 
for inviting me to present highlights from our recent report 
about Climate Change Impacts on Transportation in the Central 
Gulf Coast Region. This work was led by the United States 
Department of Transportation as--and is one of the 21 synthesis 
products of the United States Climate Change Science Program. 
The other co-leads for the project, Mike Savonis, behind me, 
from DOT, and Joanne Potter, as well, from Cambridge 
Systematics, are here with me today.
    The region between Mobile, Alabama, and Galveston, Texas, 
contains the largest concentrations--concentration of United 
States ports and thousands of miles of pipelines and onshore 
infrastructure, like tank batteries and processing plants, that 
receive and transport two-thirds of the United States oil 
imports and more than 90 percent of our Outer Continental Shelf 
oil and gas. These facilities, plus 17,000 miles of highways 
and 61 airports, are all vulnerable in some way to climate 
change that is anticipated during the next 50 to 100 years. The 
four primary drivers are: accelerated sea-level rise, increased 
air and water temperature, an increase in the intensity of 
tropical storms, and changes in rainfall patterns.
    An acceleration of sea-level rise is due to thermal 
expansion of heating of the water and the melting of glaciers 
and ice sheets as one of the most certain and most costly 
consequences of global warming. This region has very little 
topographic relief and is highly vulnerable to permanent 
flooding due to subsidence and/or accelerated sea-level rise, 
and, in fact, both of these are occurring--sea-level rise and 
subsidence--from Mobile all the way over to Galveston. This is 
very common.
    As the temperature of the sea surface increases tropical 
storms are likely to intensify. This coastline is vulnerable to 
flooding, erosion, and wetland loss during tropical storms. As 
barrier islands and mainland shorelines erode, human 
communities and onshore infrastructure and low-lying coastal 
areas become more susceptible to inundation and destruction.
    Climate models indicate an increase in average temperature 
of the region and extreme high temperatures. Rainfall is 
expected to come more in the form of heavy downpours, with an 
increase in the spacing between rainfall events.
    All of these changes in the physical climate can directly 
affect transportation infrastructure and the physical stability 
of the coast upon which the infrastructure sits. Warmer 
temperatures may require changes in materials, maintenance, and 
operation of transportation systems. Some pavements deteriorate 
more quickly. Rail lines will buckle. Higher temperatures 
affect the length of runways and aircraft performance. More 
intense rainfall would increase the short-term flooding of 
roads, which is already a problem in the region.
    We learned, from Hurricane Katrina, that prolonged flooding 
can damage pavement infrastructure. With a storm surge of 23 
feet--and we had 30 feet in the area during Katrina--but, with 
23 feet, 64 percent of the interstates, half of the rail, 29 
airports, and all of the present port facilities are subject to 
flooding. Even if storms do not increase in intensity, existing 
infrastructure will be more likely to flood as sea level rises.
    While protective structures, like levees and sea walls, can 
protect some facilities, flooding of even small segments of a 
road can make the entire system unusable, which is important, 
in terms of hurricane evacuation.
    Thank you, sir, and we have experts from transportation 
that can help answer questions.
    [The prepared statement of Ms. Burkett follows:]

  Prepared Statement of Virginia Burkett, Chief Scientist for Global 
     Change Research, Geological Survey, Department of the Interior
    Mr. Chairman and Members of the Committee, as a Lead Author and 
Editor of the U.S. Climate Change Science Program assessment of climate 
change and its impacts on Gulf Coast transportation, I am pleased to 
present a summary of our findings about trends in the physical 
environment and the climate variables that have implications for the 
transportation sector. I would like to acknowledge the other editors 
and co-authors of the report, with whom I have collaborated over the 
past four years to develop this broad regional assessment upon which my 
testimony is based (CCSP 2008):

    Editors: Michael J. Savonis (FHWA) and Joanne R. Potter (Cambridge 
Systematics)

    Lead Authors.--Michael J. Savonis, Joanne R. Potter, Robert C. 
Hyman (Cambridge Systematics), Barry D. Keim (Louisiana State 
University), Thomas W. Doyle (USGS), Robert S. Kafalenos (FHWA), 
Kenneth J. Leonard (Cambridge Systematics), Ron Hagelman (Texas State 
University), Stephen B. Hartley (USGS), Matthew Sheppard (IBM), John H. 
Suhrbier (Cambridge Systematics), Eric Lindquist (Texas A&M 
Univerisity), and Jessica E. Tump (Cambridget Systematics)

    Contributing authors.--Claudia Tebaldi (National Center for 
Atmospheric Research), Daniel M. Beagan (Cambridge Systematics), Alan 
Meyers (Cambridge Systematics), Michael F. Wehner (Lawrence Berkeley 
National Laboratory), Tamara G. Houston (NOAA), David T. Hunt 
(Cambridge Systematics), Michael K. Maynard (Wilbur Smith Associates), 
Barbara Fritsche (Wilbur Smith Associates), Russell H. Henk (Texas 
Transportation Institute), Edward J. Seymour (Texas Transportation 
Institute), Leslie E. Olson (Texas Transportation Institute) , Wesley 
R. Dean (Texas A&M University), Ivor Van Heerden (Louisiana State 
University), S. Ahmet Binselam (Louisiana State University), and Nanda 
N. Srinivasan (Cambridge Systematics)

    These authors collectively represent three Federal agencies, five 
universities and research institutions, and two transportation planning 
and engineering firms. In addition to the contributions from these co-
authors, the study was guided by a 16-member advisory committee 
formally chartered by the Secretary of Transportation under the Federal 
Advisory Committee Act of 1972. This committee included transportation 
experts representing the various modes (e.g., rail, ports, highways) 
and several additional physical scientists and risk assessment experts.
    The Gulf Coast project was sponsored by the U.S. Department of 
Transportation (DOT) in partnership with the U.S. Geological Survey 
(USGS) under the auspices of the U.S. Climate Change Science Program 
(CCSP). The study, Synthesis and Assessment Product (SAP) 4.7 titled 
``Impacts of Climate Change and Variability on Transportation Systems 
and Infrastructure: Gulf Coast Study, Phase I'' is one of 21 
``synthesis and assessment'' products planned and sponsored by the CCSP 
with the Department of Transportation as the lead agency. This SAP was 
completed by the CCSP in March 2008. This project demonstrates how our 
understanding of climate change and other physical processes can be 
integrated with knowledge of transportation engineering and planning to 
produce an assessment of risks and vulnerability that is relevant to 
this important sector of the U.S. economy.
    The ultimate goal of this 3-phased research project is to provide 
knowledge and tools that will enable transportation planners and 
managers to better understand climate change and associated risks, 
adaptation strategies, and tradeoffs involved in planning, investment, 
design, and operational decisions. The objective of Phase I of this 
project, which we have now completed, was to conduct a preliminary 
assessment of the risks and vulnerabilities of transportation in the 
region, after collecting and integrating the range of data needed to 
characterize the region--its physiography and hydrology, land use and 
land cover, past and projected climate, current population and trends, 
and transportation infrastructure. Subsequent phases will involve a 
more detailed analysis. Phase II will involve an in-depth assessment of 
risks to transportation in a selected location, reporting on 
implications for long-range plans and impacts on safety, operations, 
and maintenance. This phase will also develop a risk assessment 
methodology and identify techniques to incorporate environmental and 
climate data in transportation decisions. Phase III will identify and 
analyze adaptation and response strategies and develop tools to assess 
these strategies, while enumerating future research needs.
    My comments this morning will focus on the major drivers of change 
in the central Gulf Coast, considering the natural physical setting as 
well as the historical and projected changes in climate. The Lead 
Author of the study from the DOT, Mike Savonis, is with me to answer 
any questions that you might have about potential impacts on the wide 
range of transportation modes within the regions, such as pipelines, 
highways and ports.
    The Gulf Coast study area (Figure 1)* includes 48 contiguous 
coastal counties in four States, from Houston/Galveston, Texas, to 
Mobile, Alabama. This region is home to nearly 10 million people living 
in a range of urban and rural settings and contains critical 
transportation infrastructure that provides vital service to its 
constituent States and the Nation as a whole. It is also highly 
vulnerable to sea level rise and storm impacts. A variety of physical 
datasets were compiled for review and use by the project research team. 
Most of the spatial data was organized in geographic information system 
(GIS) formats or ``layers'' that can be used to assess the 
vulnerability and risks of the transportation infrastructure in the 
study area and inform the development of adaptation strategies. In 
cooperation with DOT's Bureau of Transportation Statistics we developed 
a GIS that allows us to overlay elevation, storm surge, census data, 
and other attributes of the study area with transportation 
infrastructure.
---------------------------------------------------------------------------
    * Figures 1-9 and tables 1-3 have been retained in committee files.
---------------------------------------------------------------------------
    The Central Gulf Coast region is a low-lying sedimentary coast with 
low topographic relief; the great majority of the study area lies below 
30 m (100 ft) in elevation (Figure 2). Much of the central Gulf Coast 
region is prone to flooding during heavy rainfall events, hurricanes, 
and lesser tropical storms. Land subsidence is a major factor in the 
region, particularly in the Galveston region and the Mississippi River 
deltaic plain. Subsidence is influenced by both landform 
characteristics of specific locations as well as by human activities, 
such as ground-water withdrawals. Most of the coastline is also highly 
vulnerable to erosion and wetland loss, particularly in association 
with tropical storms and passing storm fronts. It is estimated that 
56,000 ha (217 mi<SUP>2</SUP>) of land were lost in Louisiana during 
Hurricane Katrina. Further, many Gulf Coast barrier islands are 
retreating and diminishing in size. The Chandeleur Islands, which serve 
as a first line of defense for the New Orleans region, lost roughly 85 
percent of their surface area during Hurricane Katrina. As barrier 
islands and mainland shorelines erode and submerge, human communities 
and onshore infrastructure in low-lying coastal areas become more 
susceptible to inundation and destruction.
    The central Gulf Coast study area's transportation infrastructure 
is a robust network of multiple modes--critical both to the movement of 
passengers and goods within the region and to national and 
international transport with:

  <bullet> 27,000 km (17,000 mi) of major highways--about 2 percent of 
        the Nation's major highways--that carry 83.5 billion vehicle 
        miles of travel annually.
  <bullet> Pipelines, bulk terminals, and other infrastructure that 
        receive and transport two-thirds of all U.S. oil imports. 
        Pipelines traversing the region transport over 90 percent of 
        domestic Outer Continental Shelf oil and gas. Approximately 
        one-half of all the natural gas used in the United States 
        passes through or by the Henry Hub gas distribution point in 
        Louisiana.
  <bullet> The largest concentration of public and private freight 
        handling ports in the United States, measured on a tonnage 
        basis, which handle around 40 percent of the Nation's 
        waterborne tonnage. Four of the top five tonnage ports in the 
        United States are located in the region.
  <bullet> The center of U.S. transcontinental trucking and rail routes 
        with one of only four major points in the United States where 
        railcars are exchanged between the dominant eastern and western 
        railroads.
  <bullet> The Nation's leading and third-leading inland waterway 
        systems (the Mississippi River and the Gulf Intracoastal 
        Waterway) based on tonnage and providing 20 States with access 
        to the Gulf of Mexico.
  <bullet> 61 publicly owned, public-use airports, including 11 
        commercial service facilities.

    All of these transportation modes are vulnerable in some way to the 
changes in climate that are anticipated in this region during the next 
50 to 100 years. The relative vulnerability of facilities is dependent, 
in large part, on elevation and distance from the coastline.
    The Gulf Coast, like much of the world, has experienced significant 
changes in climate over the past century and is expected to change even 
more rapidly during the next century (IPCC, 2007). The four key climate 
drivers in the Central Gulf Coast region--rising temperatures, changing 
precipitation patterns, rising relative sea levels, and increasing 
storm intensity--present clear risks to existing infrastructure. These 
factors can be incorporated into decisions that enable communities to 
prepare for and adapt to changing climatic conditions. The research 
team's assessment of historical and potential future changes in these 
four variables draws on publications, analyses of instrumental records, 
and models that simulate how climate may change in the future.
    Our assessment of the present climate and 20th century trends was 
built around climatic data from the United States Climate Division 
Datasets (CDD) and the United States Historical Climate Network 
(USHCN). Empirical trends and variability were analyzed for temperature 
and precipitation at the CDD level for the climate divisions along the 
Gulf Coast from Galveston, Texas, to Mobile, Alabama, including Texas 
Climate Division 8, Louisiana Divisions 6-9, Mississippi Division 10, 
and Alabama Division 8 (Figure 3).
    Results from our analysis of temperature variability during 1905 to 
2003 indicate that the 1920s or 1930s was generally the warmest decade 
for the various Gulf Coast climate divisions (Figure 3). After a step 
down in the temperature in the late 1950s, the coolest period occurs in 
the 1960s, while a warming trend is evident for all seven climate 
divisions beginning in the 1970s and extending through 2003. Of the 
seven climate divisions, LA6, LA8, and MS10 have slight but significant 
cooling trends over the 98-year period of record. Precipitation 
variability shows that the 1940s and 1990s were the wettest decades, 
while the 1950s was generally the driest (Figure 4). Although all of 
the climate divisions at least suggest long-term patterns of increasing 
rainfall, only MS10 and AL8 have significant trends.
    A water balance model developed for the region suggests a long-term 
trend of increasing annual runoff (Figure 5). Over the entire record 
since 1919, there was an increase in rainfall that, combined with 
relatively cool temperatures, led to an estimated 36 percent increase 
in runoff. Modeled future water balance, however, suggests that runoff 
is expected to either decline slightly or remain relatively unchanged, 
depending upon the balance of precipitation and evaporation. Moisture 
deficits and drought appear likely to increase across the study area, 
though model results are mixed. These findings are consistent with the 
Intergovernmental Panel on Climate Change (IPCC, 2007), which concludes 
that it is very likely that heat waves, heat extremes, and heavy 
precipitation events over land will increase during this century and 
that the number of dry days (or spacing between rainfall events) will 
increase. Even in mid-latitude regions where mean precipitation is 
expected to decrease, precipitation intensity is expected to increase 
(IPCC, 2007).
    Sea level has risen more than 120 m (395 ft) since the peak of the 
last ice age (about 20,000 B.P.) and over the 20th century by 1-2 mm/
year (0.04-0.08 in/year). The rate of global sea level rise since 1963 
is estimated at 1.8 mm/year (0.07 in/year) (IPCC, 2007). More recent 
analysis of satellite altimetry data for the period from 1993 to 2003 
shows a global average rate of sea level rise of about 3.1 (2.4-3.8) mm 
per year (0.12 in/year). Whether the faster rate since 1993 reflects 
decadal variability or a long-term acceleration over the 20th century 
rate is unclear. There is high confidence, however, that the rate of 
observed sea level rise was greater in the 20th century compared to the 
19th century (IPCC, 2007).
    Changes in mean water level at a given coastal location are 
affected by a combination of changes in sea level in an ocean basin and 
by local factors such as land subsidence. Gulf Coastal Plain 
environments, particularly in the central and western parts of the Gulf 
Coast study area, are prone to high rates of land surface subsidence 
attributed to soil decomposition and compaction, deep fluid extraction, 
and the lack of sediment deposition. For example, the Mississippi River 
delta region demonstrates relative sea level rates of 10 mm/year (0.40 
in/year), five-fold greater than the 20th century rate of global sea 
level rise. Subsidence rates for several Gulf Coast sites by previous 
investigators range from a low of 0.27 cm/year (0.11 in/year) in the 
Big Bend region of northwest Florida up to 2.39 cm/year (0.94 in/year) 
for coastal Louisiana.
    The scenarios of future climate referenced in our report were 
generated by the National Center for Atmospheric Research (NCAR), a 
research center lead by a consortium of universities and international 
organizations, by using an ensemble of 21 different atmosphere-ocean 
coupled general circulation models (GCM) for the Gulf Coast region. 
Model results, climatic trends during the past century, and climate 
theory all suggest that extrapolation of the 20th century temperature 
record would likely underestimate the range of change that could occur 
in the next few decades. While there is still considerable uncertainty 
about the rates of change that can be expected (Karl and Trenberth, 
2003), there is a fairly strong consensus regarding the direction of 
change for most of the climate variables that affect transportation in 
the Gulf Coast region.
    Climate models currently lack the detail needed to make confident 
projections or forecasts for a number of variables, especially on small 
scales, so plausible ``scenarios'' are often used to provide input to 
decision making (Parson et al., 2007). Output from an ensemble of 21 
GCMs run with the three emissions scenarios indicate a wide range of 
possible changes in temperature and precipitation out to the year 2050. 
The models agree to a warmer Gulf Coast region of about 1.5 C  1 C 
(2.7 F  1.8 F), with the greatest increase in temperature occurring 
in the summer. Based on historical trends and model projections, we 
conclude that it is very likely that in the future the number of very 
hot days will substantially increase across the study area. Modeled 
outputs of potential temperature increase scenarios for August are 
presented in Table 1. Extreme high temperatures could be about 1C (1.8 
F) greater than the change in the average temperature simulated by the 
GCMs.
    Scenarios of future precipitation are more convoluted, with 
indications of increases or decreases by the various models, but the 
models lean slightly toward a decrease in annual rainfall across the 
Gulf Coast. However, by compounding changing seasonal precipitation 
with increasing temperatures, average runoff is likely to remain the 
same or decrease, while deficits (or droughts) are more likely to 
become more severe. Each of the climate model and emissions scenarios 
analyzed in our report represents plausible future regional conditions.
    Increased tropical storm intensity is likely to accompany global 
warming as a function of higher sea surface temperatures, which have 
been observed globally (Webster et al., 2005; IPCC 2007). The kinetic 
energy of tropical storms and hurricanes is fueled from heat exchange 
over warm tropical waters. An increase in sea surface temperature (SST) 
from global climate change is likely to increase the probability of 
higher sustained winds per tropical storm circulation (Emanuel, 1987; 
Holland, 1997; Knutson et al., 1998). Sea surface temperature has 
increased significantly in the main hurricane development region of the 
North Atlantic during the past century (Bell et al., 2007) (Figure 6) 
as well as in the Gulf of Mexico (Smith and Reynolds, 2004) (Figure 7).
    Recent empirical evidence suggests a trend towards more intense 
hurricanes formed in the North Atlantic Basin, and this trend is likely 
to intensify during the next century (IPCC, 2007). In the Gulf region, 
there is presently no compelling evidence to suggest that the number or 
paths of tropical storms have changed or are likely to change in the 
future.
    Change in the rate of sea level rise is dependent on a host of 
interacting factors that are best evaluated on decadal to centennial 
time scales. Two complementary modeling approaches were applied in this 
study to assess the potential rise in sea level and coastal submergence 
over the next century. Both models were used to estimate relative sea 
level rise (RSLR) by 2050 and 2100 under a range of greenhouse gas 
emissions scenarios. Both models account for global sea level change as 
estimated by the global climate models and also incorporate values for 
land subsidence in the region based on the historical record. One 
model, CoastClim, produces results that are closer to a simple measure 
of future sea level change under the scenarios of future climate. A 
similar model, SLRRP, also incorporates values for high and low tidal 
variation attributed to astronomical and meteorological causes, which 
are pulled from the historical record. The SLRRP model is rectified to 
the NAVD88 (North American Vertical Datum of 1988) that is commonly 
used by surveyors to calculate the elevations of roads, bridges, 
levees, and other infrastructure. The tide data used in the SLRRP model 
is based on a monthly average of the mean high tide (called mean high 
water) for each day of the month (Table 2). The SLRRP results capture 
seasonal variability and interannual trends in relative sea level 
change, while the CoastClim results do not.
    The three long-term tide gauge locations analyzed in this study 
represent three subregions of the study area: Galveston, Texas (the 
chenier plain); Grand Isle, Louisiana (the Mississippi River deltaic 
plain); and Pensacola, Florida (Mississippi/Alabama Sound) (Figure 8). 
For each of these gauges, we examined potential range of relative sea 
level rise through 2050 and 2100 using the SRES B1, A1B, A2, and A1FI 
emissions scenarios based on the combined output of 7 GCMs. Results for 
the year 2100 generated with CoastClim range from 24 cm (0.8 ft) in 
Pensacola to 167 cm (5.5 ft) in Grand Isle. Results for the year 2100 
from SLRRP (Table 3), which as noted above accounts for historical 
tidal variation, indicate relative sea level rise in the range of 70 cm 
(2.3 ft, NAVD88) in Pensacola to 199 cm (6.5 ft, NAVD88) in Grand Isle.
    Storm surge simulations accomplished basin-specific surge height 
predictions for a combination of storm categories, track speeds, and 
angled approach on landfall that can be summarized by worst-case 
conditions to exceed 6 to 9 m (20 to 30 ft) along the central Gulf 
Coast. Storm attributes and meteorological conditions at the time of 
actual landfall of any storm or hurricane will dictate actual surge 
heights. Transportation officials and planners within the defined study 
area can expect that transportation facilities and infrastructure at or 
below 9 m (30 ft) of elevation along the coast are subject to direct 
and indirect surge impacts. Sea level rise of 1 to 2 m (3 to 6 ft) 
along this coast could effectively raise the cautionary height of these 
surge predictions to 10 m (33 ft) or more by the end of the next 
century.
    Changes in climate can have widespread effects on physical and 
biological systems of low-lying, sedimentary coasts. However, the large 
and growing pressures of development are responsible for most of the 
current stresses on Gulf Coast natural resources, which include: water 
quality and sediment pollution, increased flooding, loss of barrier 
islands and wetlands, and other factors that are altering the 
resilience of coastal ecosystems (U.S. Environmental Protection Agency, 
1999). Human alterations to freshwater inflows through upstream dams 
and impoundments, dredging of natural rivers and engineered waterways, 
and flood-control levees also have affected the amount of sediment 
delivered to the Gulf coastal zone. Roughly 80 percent of U.S. coastal 
wetland losses have occurred in the Gulf Coast region since 1940, and 
predictions of future population growth portend increasing pressure on 
Gulf Coast communities and their environment. Sea level rise will 
generally increase marine transgression on coastal shorelines and the 
frequency of barrier island overwash during storms, with effects most 
severe in coastal systems that already are stressed and deteriorating. 
An increase in tropical storm intensity or a decrease in fresh water 
and sediment delivery to the coast would tend to amplify the effects of 
sea level rise on Gulf Coast landforms.
    The global near-surface air temperature increase of the past 100 
years is approaching levels not observed in the past several hundred 
years (IPCC, 2001). Regional ``surprises'' are increasingly possible in 
the complex, nonlinear Earth climate system (Groisman et al., 2004), 
which is characterized by thresholds in physical processes that are not 
completely understood or incorporated into climate model simulations; 
e.g., interactive chemistry, interactive land and ocean carbon 
emissions, etc. While there is still considerable uncertainty about the 
rates of change that can be expected (Karl and Trenberth, 2003), there 
is a fairly strong consensus regarding the direction of change for most 
of the climate variables that affect transportation in the Gulf Coast 
region. Key findings from our analysis and other published studies for 
the study region concerning future climate include:

          Warming temperatures--All GCMs available from the IPCC (via 
        the Coupled Model Intercomparison Project 3) used in this study 
        indicate an increase in average annual Gulf Coast temperature 
        through the end of this century. Based on GCM runs under three 
        different emission scenarios developed by the IPCC Special 
        Report on Emissions Scenarios (SRES) (the low-emissions B1, the 
        high-emissions A2, and the mid-range A1B scenarios), the 
        average temperature in the Gulf Coast region appears likely to 
        increase by at least 1.5C  1C (2.7F  1.8F) during the 
        next 50 years. Extreme high temperatures are also expected to 
        increase--with the number of days above 32.2C (90F) very 
        likely to increase significantly across the study area. Within 
        50 years the probability of experiencing 21 days a year with 
        temperatures of 37.8C (100F) or above is greater than 50 
        percent (Figure 9).
          Changes in precipitation patterns--Some analyses, including 
        the GCM results from this study, indicate that average 
        precipitation will increase in this region while others 
        indicate a decline of average precipitation during the next 50 
        to 100 years. In either case, it is expected that average soil 
        moisture could decline, due to increasing temperatures and 
        resulting higher evapotranspiration rates. While average annual 
        rainfall may increase or decrease slightly, the intensity of 
        individual rainfall events is likely to increase during the 
        21st century.
          Rising Sea Levels--Relative sea level is likely to rise 
        between 1 and 6 ft by the end of the 21st century, depending 
        upon model assumption and geographic location. The highest rate 
        of relative sea level rise will very likely be in the central 
        and western parts of the study area (Louisiana and East Texas) 
        where subsidence rates are highest (Table 3). Relative sea 
        level rise (RSLR) is the combined effect of the projected 
        increase in the volume of the world's oceans (eustatic sea 
        level change), which results from increases in temperature and 
        melting of ice, and the projected changes in land surface 
        elevation at a given location due to subsidence of the land 
        surface. The highest rate of relative sea level rise will very 
        likely be in the central and western parts of the study area 
        (Louisiana and East Texas), where subsidence rates are highest 
        (Table 3). The analysis of a ``middle range'' of potential sea 
        level rise of 0.6 to 1.2 meters (2 to 4 feet) indicates that a 
        vast portion of the Gulf Coast from Houston to Mobile may be 
        inundated over the next 50 to 100 years. The projected rate of 
        relative sea level rise for the region is consistent with 
        historical trends, other published region-specific analyses, 
        and the IPCC 4th Assessment Report findings, which assumes no 
        major changes in ice sheet dynamics.
          Storm Activity--The destructive potential of hurricanes is 
        likely to increase as the sea surface temperature of the 
        Atlantic and Gulf of Mexico continue to rise. Rising relative 
        sea level will exacerbate exposure to storm surge and flooding. 
        Depending on the trajectory and scale of individual storms, 
        facilities at or below 9 m (30 ft) could be subject to direct 
        storm surge impacts. Rising relative sea level will exacerbate 
        exposure to storm surge and flooding.

    In the near term, the direction and scale of these modeled outcomes 
are consistent regardless of the assumptions used for level of 
greenhouse gas emissions. Model outputs are relatively similar across a 
range of IPCC SRES emission scenarios for the next four decades. 
However, long-range projections (modeled to 100 years) do vary 
depending upon emission scenario, with the magnitude of impacts 
indicated being more severe under higher-emission assumptions.
    Based on findings from the USGS-led research team about the 
physical setting and climatic trends, a regional-scale characterization 
of impacts on transportation systems and infrastructure was led by the 
DOT. The following summary of potential impacts is presented in the 
Executive Summary of the report:

    Warming temperatures may require changes in materials, maintenance, 
and operations. The combined effects of an increase in mean and extreme 
high temperatures across the study region are likely to affect the 
construction, maintenance, and operations of transportation 
infrastructure and vehicles. Higher temperatures may also suggest areas 
for materials and technology innovation to develop new, more heat-
tolerant materials. Some types of infrastructure deteriorate more 
quickly at temperatures above 32.2C (90F). As the number of very hot 
days increases, different materials may be required. Further, 
restrictions on work crews may lengthen construction times. Rail lines 
may be affected by more frequent rail buckling due to an increase in 
daily high temperatures. Ports, maintenance facilities, and terminals 
are expected to require increased refrigeration and cooling. Finally, 
higher temperatures affect aircraft performance and the runway lengths 
that are required. However, advances in aircraft technology are 
expected to offset the potential effects of the temperature increases 
analyzed in this report, so that current runway lengths are likely to 
be sufficient. The effects of increases in average temperatures and in 
the number of very hot days will have to be addressed in designing and 
planning for vehicles, facilities, and operations.
    Changes in precipitation patterns may increase short-term flooding. 
The analysis of future annual precipitation change based on results of 
climate model runs is inconclusive: some models indicate an increase in 
average precipitation and some indicate a decrease. In either case, the 
hotter climate may reduce soil moisture and average run-off, possibly 
necessitating changes in right-of-way land management. The potential of 
changes in heavy rainfall may have more significant consequences for 
transportation; more frequent extreme precipitation events may result 
in more frequent flooding, stressing the capacity of existing drainage 
systems. The potential of extreme rainfall events and more frequent and 
prolonged flooding may disrupt traffic management, increase highway 
incidents, and impact airline schedules--putting additional strain on a 
heavily used and increasingly congested system. Further, prolonged 
flooding--inundation in excess of one week--can damage pavement 
substructure.
    Relative sea level rise may inundate existing infrastructure. To 
assess the impact of relative sea level rise (RSLR), the implications 
of rises equal to 61 cm and 122 cm (2 and 4 ft) were examined. As 
discussed above, actual RSLR may be higher or somewhat lower than these 
levels. Under these scenarios, substantial portions of the 
transportation infrastructure in the region are at risk: 27 percent of 
the major roads, 9 percent of the rail lines, and 72 percent of the 
ports are at or below 122 cm (4 ft) in elevation, although portions of 
the infrastructure are guarded by protective structures such as levees 
and dikes. While protective structures will continue to be an important 
strategy in the area, rising sea levels significantly increase the 
challenge to transportation managers in ensuring reliable 
transportation services. Inundation of even small segments of the 
intermodal system can render much larger portions impassable, 
disrupting connectivity and access to the wider transportation network.
    Increased storm intensity may lead to greater service disruption 
and infrastructure damage. This study examined the potential for 
flooding and damage associated with storm surge levels of 5.5 m and 7.0 
m (18 ft and 23 ft). These modeled outputs are comparable to potential 
surge levels during severe storms in the region: Simulated storm surge 
from model runs across the central Gulf Coast demonstrated a 6.7-to 
7.3-m (22-to 24-ft) potential surge for major hurricanes. These levels 
may be conservative; surge levels during Hurricane Katrina (rated a 
Category 3 at landfall) exceeded these heights in some locations. The 
specific location and strength of storm surges are of course determined 
by the scale and trajectory of individual tropical storms, which are 
difficult to predict. However, substantial portions of the region's 
infrastructure are located at elevations below the thresholds examined, 
and recent storms have demonstrated that major hurricanes can produce 
flooding miles inland from the location of initial landfall. With storm 
surge at 7 m (23 ft), more than half of the area's major highways (64 
percent of Interstates; 57 percent of arterials), almost half of the 
rail miles, 29 airports, and virtually all of the ports are subject to 
flooding.
    Other damage due to severe storms is likely, as evidenced by the 
damage caused by Hurricanes Katrina and Rita in 2005. Damage from the 
force of storm surge, high winds, debris, and other effects of 
hurricanes can be catastrophic, depending on where a specific hurricane 
strikes. This studyI did not examine in detail these effects; the 
cumulative direct and indirect impacts of major storms need to be 
further analyzed. However, given the expectation of increasing 
intensity of hurricanes in the region, consideration should be given to 
designing new or replacement infrastructure to withstand more energy-
intensive, high-category storms.

    Mr. Chairman, thank you for the opportunity to present the findings 
of Phase I of the Gulf Coast study. I will be happy to answer any 
questions that you and other Members of the Committee may have.

    The Chairman. Thank you very much.
    Dr. Wallace, please.

 STATEMENT OF TERRY WALLACE, PRINCIPAL ASSOCIATE DIRECTOR FOR 
   SCIENCE, TECHNOLOGY AND ENGINEERING, LOS ALAMOS NATIONAL 
                   LABORATORY, LOS ALAMOS, NM

    Mr. Wallace. Good morning, Chairman Bingaman and 
distinguished members of the committee. It is an honor to be 
able to appear before you today to discuss the national energy 
infrastructure and its vulnerability to extreme weather events 
and climate change.
    The United States energy infrastructure is extraordinary, 
both in the scale and complexity, and this vital network is 
susceptible to climate change through two phenomena which have 
already been outlined by other panelists; that is, the 
vulnerability to storms and the long-term climatic conditions.
    I'd like to focus on a couple of specific examples to 
illustrate this. Carrying on the theme of Senator Craig, we do 
have an infrastructure which is quite aged. If we look at some 
of that infrastructure and the challenges that it will face, 
particularly with climate change, we have some decisions which 
need to be made.
    The National Laboratories developed infrastructure models 
to assess the vulnerabilities to domestic infrastructures, and 
these models are already in wide use within the Federal 
Government to improve our ability to prepare for and respond to 
natural disasters. But, let's look at the specific examples, 
maybe away from the coast, where some of the other panelist 
members will concentrate their testimony.
    I'd like to take an example of California. Using climate 
science to predict the temperature rise in coastal California, 
we can evaluate the cascading effects on the electric grid and 
water availability. The midpoint prediction for a rising 
temperature in California by the year 2030 is on the order of 2 
degrees Fahrenheit. Although this seems like a small number, it 
will have a dramatic impact. For example, the length of the 
season for what we call ``heat-wave days'' grows by about 30 
percent, and, further, the demand for electricity will create 
rolling blackouts. If we put those together, we see that this 
will increase, by approximately 11 gigawatts, new power 
capacity that's required just to deal with the climatic 
changes. This is above and beyond the nearly 60 gigawatts that 
will be needed for projected growth to California's State 
economy.
    Beyond these power needs, there is a connection to water. 
Meeting the increased power needs, if it's--for example, use 
coal--will require an additional 280 billion gallons of water 
per year. So, in this California scenario, even a slight 
temperature change will require maybe a 20-percent increase in 
new electrical energy capacity, have a dramatic impact on water 
resources, and together this will have a consequence on the 
California GDP on the order of $20 billion--or $200 billion by 
the year 2030.
    A second example I'd like to show, which are illustrated 
over here, is, if we--the consequences of shifting to 
renewables; in particular, wind. There's a new wind study 
that's out today from EERE. Wind provides a clean, but 
intermittent, source of energy. If we consider an energy 
scenario where we want to see wind to grow to be 25 percent of 
the portfolio in the Western United States region, we can look 
at the consequence. Wind-generation capacity must be installed 
in geographic areas that are--where we have sustained wind 
resources. On this chart, you can see, those are concentrated 
in the Western United States, on the eastern slope of the 
Rockies. Getting to a goal of 25-percent wind generation 
requires an--adding something like 20,000 square miles of wind 
generation. However, this wind generation is far from the 
existing grid, and it will dramatically overload the existing 
grid as it carries power to our population centers. This is 
illustrated here. The dark blue lines show you where we will 
have transmission overloads. So, simply increasing the wind 
power is not sufficient to talk about what the climatic changes 
will have.
    These scenarios illustrate that there are significant 
tradeoffs in the different choices we need to make when we look 
at a growing energy portfolio. Climate change provides a set of 
future constraints with measurable economic impacts. They 
nearly have as much impact on our energy choices as will our 
growing population over the next 30 years.
    So, in conclusion, I just wanted to give a few of these 
examples where the National Laboratories are applying science 
to understanding important vulnerabilities and trying to 
provide choices or scenarios that public policymakers make when 
they choices for energy.
    So, I thank you for this opportune for testifying, and I'm 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Wallace follows:]

 Prepared Statement of Terry Wallace, Principal Associate Director for 
 Science, Technology and Engineering, Los Alamos National Laboratory, 
                             Los Alamos, NM
                              introduction
    Good morning Chairman Bingaman, Ranking Member Domenici, and 
distinguished members of the Committee. It is an honor to appear before 
you today to discuss the national energy infrastructure and its 
vulnerability to extreme weather events and climate change. I will also 
discuss some of the tools in development at the Department of Energy's 
national laboratories to guide policymakers on these issues.
    I am Terry Wallace, the Principal Associate Director for Science, 
Technology and Engineering at Los Alamos National Laboratory. Los 
Alamos' mission is to develop and apply science and technology to 
ensure the safety, security and reliability of the U.S. nuclear 
deterrent; reduce global threats; and solve other emerging national 
security challenges. No emerging challenge is greater than that of 
energy.
    Energy is the cornerstone of our nation's prosperity and the global 
demand is extraordinary. If the rest of the world's population enjoyed 
the U.S. standard of living today, it would require an immediate six-
fold increase in energy production. Within a generation, energy demand 
will more than double.\1\ The speed of this growth, and its global 
scale, are unlike anything we have experienced. While energy use in the 
US will grow more modestly over this period, we are interconnected to 
global demand through our infrastructure. Our national security 
vulnerabilities are intimately tied to this infrastructure. In this 
testimony, I will focus on how we are using today's best science to 
create tools to understand and mitigate vulnerabilities to our energy 
infrastructure from increased energy demand and climate change.
---------------------------------------------------------------------------
    \1\ Projections from the Energy Information Agency indicate a 
growth of 57% worldwide by 2030, or doubling in approximately 40 years. 
Scenario planning from LBL takes this as a lower limit, with an upper 
limit of 2.8% per year, or tripling in 40 years.
---------------------------------------------------------------------------
                   the nation's energy infrastructure
    The United States' energy infrastructure starts with the generation 
and delivery systems for our primary energy sources: electricity 
(dominated by coal and nuclear), liquid fuels (dominated by petroleum), 
and natural gas. There are 160,000 miles of electrical transmission 
lines connecting over 600 coal-fired plants and 65 nuclear plants, over 
600 major sources of hydropower, and many smaller plants using 
renewable resources. The electrical backbone delivers power to 
consumers through 35,000 substations that ultimately reach 140,000,000 
individual, commercial and industrial users. For petroleum, there are 
180,000 miles of pipelines for oil and 300,000 miles for natural gas, 
supplying end users through a network of 150 refineries of liquid fuel, 
and through 1,900,000 miles of natural gas lines to consumers.\2\
---------------------------------------------------------------------------
    \2\ http://www.eia.doe.gov/pub/oil--gas/natural--gas/analysis--
publications/ngpipeline/index.html
    http://www.referenceforbusiness.com/industries/Transportation-
Communications-Utilities/Petroleum-Pipelines-Refined.html
    http://www.colpipe.com/ab--main.asp
    http://www.eia.doe.gov/basics/quickelectric.html
    http://tonto.eia.doe.gov/ask/electricity--faqs.asp
    http://www.whitehouse.gov/energy/National-Energy-Policy.pdf
    http://www.gasfoundation.org/ResearchStudies/SafetyReport.pdf
    http://www.eia.doe.gov/neic/quickfacts/quickoil.html
---------------------------------------------------------------------------
    However, the infrastructure is much more complex than just this 
backbone, and I will explore some of the ways that different elements 
are linked together and interdependent. Beyond the backbone, the energy 
infrastructure links directly to telecommunications, the banking 
system, public health, transportation, food, and manufacturing. 
Understanding the links helps us make better policy choices.
    For example, electric power and water are linked. A 500 MWe coal-
fired generating plant typically consumes 1.8 billion gallons of water 
per year. The use of this water impacts regional choices for farming, 
industrial, and residential use. The CO<INF>2</INF> emissions from such 
a plant will accelerate climate change, with both regional and global 
impacts on temperature. The availability of water will increasingly 
constrain economic growth. Changes in climate will affect where human 
populations grow or migrate. The changes in population create shifting 
demands, in turn, for energy and water, and these demands should guide 
the investments we are making today in our infrastructure. It is 
particularly urgent that we develop science-based tools now to inform 
these investments. While the timescale for climate change is long, 
today's energy choices will also be felt long into the future, because 
the lifetime of our capital investments in the energy backbone is more 
than 50 years.
    Global climate change models have been developed with support by 
the DOE Office of Science, and several national laboratories play a 
strong role in this science, including Los Alamos. Climate change can 
lead to specific threats to our energy infrastructure, for example 
through flooding in coastal areas, and water shortages triggered by 
temperature rise and regional drought. These effects will be felt most 
acutely on our coasts, both because most of our population lives near 
the coast, and because many climate change impacts are concentrated at 
the coasts. This is illustrated in Fig. 1,* which shows the proximity 
of electrical lines and substations to flood-prone areas in Baltimore, 
and the network of electrical generation and transmission facilities 
near California, which rely directly on water (hydropower and coal).
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in committee files.
---------------------------------------------------------------------------
                   fragility and storm vulnerability
    The national laboratories have developed infrastructure models to 
assess vulnerabilities in domestic infrastructures (to sudden events 
such as terrorist attacks or natural disasters). These models include 
best-in-class infrastructure data on US critical infrastructure 
sectors. They are already in wide-use by the federal government (such 
as the Department of Homeland Security's National Infrastructure 
Simulation and Analysis Center [NISAC],\3\) to improve our ability to 
prepare for and respond to natural disasters. The models allow 
predictions of where resources should be targeted to make the backbone 
more robust. They allow us to run scenarios that help train our 
emergency responders, and they help the government position disaster 
response resources at the locations where they can make the biggest 
difference.
---------------------------------------------------------------------------
    \3\ http://www.dhs.gov/xabout/structure/gc--1197658542121.shtm
---------------------------------------------------------------------------
    For example, less than a month after Hurricane Katrina, 
infrastructure modeling was used to position emergency responders, 
telecommunications and power repair crews, and supplies in Florida 
prior to Hurricane Rita. This intensive modeling effort by NISAC from 
several national labs (including Los Alamos and Sandia), incorporated 
lessons learned from Katrina, and helped the nation bring back the 
critical energy and communications infrastructure in Florida within two 
weeks, with a dramatic benefit to the regional population and economy. 
Similarly, these scientific models today inform a wide range of 
national security simulations to help us prepare both homeland security 
professionals and our soldiers. This powerful set of tools for decision 
makers has been validated using detailed data for our infrastructure 
today, in all its complexity, and shown to have strong predictive value 
for natural disasters. The nation can benefit by extending these tools 
to more broadly inform our national energy policymakers.
                    energy demand and climate change
    Los Alamos researchers recently applied similar models in 
California and the 14-state western region to highlight the connections 
between power, water, and infrastructure planning. Using the best 
global climate science to bracket predictions of temperature rise in 
coastal California, we evaluated the cascading effects on the electric 
grid and water availability. The results were dramatic, and illustrated 
the need for state politicians to begin making changes in their near-
term capital investment planning as a response.
    The midpoint prediction for rising temperature in California in the 
year 2030 is between 2 degrees F (winter) and 4 degrees F using today's 
best climate models.\4\ Although this may seem like a small number, 
looking at its impact on electricity demand, several key predictors of 
system failure for the electrical grid change dramatically in these 
scenarios. First, the length of the season for heat-wave days grows 
from roughly 110 days to 140 days. Heat-wave days generate the largest 
short-term demand for air conditioning. Second, the need for rolling 
blackouts is triggered when average demand across a region crosses a 
threshold near the peak delivering capacity of the existing grid. The 
infrastructure models predict that by the year 2020, there will be 100 
hours of rolling blackouts across more than 20 days, triggered 
primarily by overtaxed capacity in the Bay area, but with effects 
across the state (Fig. 2). The effects of climate change will trigger a 
need for approximately 11 GW of new power capacity, in addition to the 
57 GW that will be needed from projected growth to the state economy 
based on current trends. Beyond the increased power needs, the 
connection to water will be acutely felt in the southwest through both 
reservoirs in the Sierras and through the Colorado river system. The 
climate impacts will result in decreases in Sierra snowpack of about 
35%, and decreases of total reservoir inflow of about 10%. On the 
demand side, meeting the increased power need from coal sources would 
require an additional 280 billion gallons of water per year.
---------------------------------------------------------------------------
    \4\ Hayhoe et al, Proc. Natl. Acad. Sci 101, 12422-27 (2004).
---------------------------------------------------------------------------
    In other words, even modest climate change (2-4 degrees F) is 
expected to trigger a 20% change in the projected need for new 
electrical energy capacity, and a dramatic effect on water resources. 
Together, these effects point to a potential cost to the cumulative 
California gross state product (the value of all goods and services) of 
more than $200 billion by 2030. Because these effects will be felt 
within two decades, the planning for this increased capacity has 
already started. Luckily, the modeling identifies key failure points 
(such as those transmission lines in the San Jose-East Bay corridor), 
and also allows us to test different mitigation strategies, compared to 
the cost of taking no action. Most importantly, these tools allow 
policymakers to compare the inter-related impacts of simultaneous 
adoption of policies across the spectrum of conservation, new 
infrastructure construction by region and by technology, and the 
interplay of resources such as water and power. This provides a 
science-based framework for informing tradeoffs that must happen 
between different interests in policy discussions at state, regional, 
and national levels.
                       impacts of a push for wind
    One of the strongest policy responses being adopted to address this 
need for new energy sources because of growth and climate change is to 
require the rapid scale-up of renewable resources such as wind energy. 
Actions are being taken at the state, regional, and national level to 
provide both financial incentives and regulatory requirements for 
utilities to increase wind energy. Wind provides a clean (but 
intermittent) source of energy, and in the West the water savings for 
implementing wind energy provide a substantial additional benefit. As 
one mitigation strategy, this infrastructure modeling approach was used 
to model the growth of wind energy to 25% of the western regional 
total. Because the wind generation capacity must be installed in 
geographic areas where there are sustained wind resources, this has 
substantial implications for today's electrical grid. Figure 3 shows 
the intensity of wind in the western region, which is concentrated 
across four Rocky Mountain states, plus California. Getting to the goal 
of 25% wind power requires wind generation across about 20,000 square 
miles (unlike solar panels, the land around wind farms can continue to 
be used for farming, ranching and resource exploration).
    However, this generation capacity occurs far from the existing 
grid, and the resulting load in getting this power to where it is 
needed by the growing population centers across the West will result in 
transmission line overloads across a major portion of the western 
network (Fig. 4). Interestingly, if conventional power plants continue 
to be built near existing load requirements, there is much less impact 
on transmission lines.
    Of course, where people live, especially in concentrated population 
centers such as Phoenix, has a profound influence on regional energy 
and water use. There is a large body of evidence documenting the 
effects of urban heat islands (such as Phoenix) in raising the average 
temperature, especially the nighttime low temperatures, over the entire 
geographical area of the city. In the case of Phoenix, the average 
daily low temperature is more than 10 degrees F higher, over an 800 
square mile area, than the surrounding undeveloped areas. This has 
accelerated the use of energy for air conditioning, as well as water. 
According to a recent estimate, a rise of 5 degrees in the low 
nighttime temperature led to a 9% increase in residential water usage. 
This equates to more than 500 million gallons per month just from the 
effects of the urban heat island in Phoenix.\5\ Similar effects are now 
occurring for Las Vegas and many other cities across the southern U.S. 
In this way, population growth not only concentrates the use of energy 
and water, it accelerates the pace of regional climate change in a way 
that provides positive feedback, or more rapid growth of consumption.
---------------------------------------------------------------------------
    \5\ Guhathakurta & Gober, J. Am. Planning Assoc. 73, 317-29 (2007).
---------------------------------------------------------------------------
    As these scenarios illustrate, there are tradeoffs involved in the 
different choices we might make to meet a growing energy need. Climate 
change provides a set of future constraints with quantitative economic 
impacts that can be bracketed with high confidence, even though there 
is substantial uncertainty in the range of outcomes. If we choose 
primarily coal-based power, we can quantify the impacts on water 
resources; if we choose renewable resources such as wind, we can 
quantify requirements for improvements in the transmission network. 
Growth of population centers couples strongly to both intensity of 
water and energy use, and the need for future infrastructure. Using 
today's predictive science modeling tools, we can give a balanced view 
of these tradeoffs to policymakers at a state, national, and global 
scale. Tomorrow's tools can be targeted to ask the right questions to 
strengthen our future infrastructure.
                               conclusion
    In summary, I have given just a small number of examples of how our 
national laboratories are working to apply science to understanding 
important vulnerabilities in our national infrastructure, and the 
interdependencies that impact public policy choices. These science-
based modeling tools could, and should be much more widely applied in 
energy security, as we move rapidly into a future where our national 
security, economy, and lifestyle depend on how we prioritize 
investments to meet global climate and energy challenges.
    Thank you for this opportunity to testify. I would be pleased to 
answer any questions you may have.

    The Chairman. Thank you very much.
    Senator Landrieu, when Mr. Falgout sat down, I went ahead 
and introduced him. Would you like to make any additional 
comments?

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. I would just like to welcome Ted, who's 
been, just, a tremendous advocate for not only the expansion of 
Port Fourchon and energy infrastructure to bring to this Nation 
the oil and gas resources that we need to keep this Congress 
moving, but I think he's been a great advocate for the 
restoration of the coast.
    I thank you, Ted, and look forward to your testimony.
    I also want to say to Dr. Burkett, it's wonderful to see 
you, Virginia. She's served our State so well in the capacity 
of secretary of Wildlife and Fisheries, and is now serving the 
Nation in a broader capacity.
    So, I want to welcome both witnesses with Louisiana roots.
    Thank you.
    The Chairman. Right.
    Mr. Falgout, go right ahead.

   STATEMENT OF TED FALGOUT, PORT DIRECTOR, PORT FOURCHON, LA

    Mr. Falgout. Thank you, Senator Landrieu, Chairman 
Bingaman, committee members, for the opportunity to testify.
    I'm going to focus my testimony on a former distributary of 
the Mississippi, the Bayou LaFourche Corridor, its uniqueness, 
its vulnerability, and why this rapidly eroding piece of real 
estate should be of great concern to all of us.
    The Gulf's key energy support infrastructure is not widely 
distributed throughout the Gulf. Eighty percent of the oil and 
87 percent of the natural gas comes from offshore Louisiana. 
Port Fourchon has evolved into the most significant energy 
support facility on the Gulf of Mexico. It services over 90 
percent of the deepwater activity in the Gulf, 45 percent of 
the Shelf, and is the support base for LOOP, the Louisiana 
Offshore Oil Port, which handles 13 percent of the Nation's 
foreign oil. The pipeline infrastructure that connects the 50 
percent of the United States refining capacity runs through our 
port. At the end of the day, this remote piece of real estate 
plays some key role in furnishing this country with 15 to 18 
percent of its total oil supply, both foreign and domestic, as 
well as a significant part of its seafood production.
    The LaFourche Corridor, as a result of being one of the 
most recent Mississippi River Delta lobes, less than 7,000 
years old, is experiencing one of the highest rates of 
subsidence in the world; therefore, our relative sea-level rise 
is more than twice what other coastal areas are.
    With much of the southern reach of this critical corridor 
barely above sea level today, the need for action is immediate 
if not addressed. The vulnerability of this Nation's energy 
security will increase greatly.
    Unreliability plays a big part in today's record gas 
prices. A recent study determined that in 2006 over $63 billion 
worth of oil and gas was tied to this port. That was at $66-a-
barrel oil. This year, it will exceed $100 billion. It's 
conservatively estimated that a 3-week loss in services from 
Port Fourchon would lead to a loss of almost $10 billion in 
sales, $2.9 billion in household earnings, 77,440 jobs 
nationwide, just a 3-week disruption. By the way, it would also 
include an additional 21.6-cents-per-gallon increase in 
gasoline prices nationwide. Without increased levee protection 
and infrastructure upgrades, we will simply be unable to 
sustain ourselves and what we provide to this Nation.
    Our greatest vulnerability exists in the 17-mile stretch of 
Louisiana Highway 1, which connects the port to the hurricane-
protection levee system inland. Only by elevating this highway 
will there be a reduction in the vulnerability of this critical 
piece of energy infrastructure. The good news is that we've not 
stood idly by complaining, we have amassed over $300 million, 
and are in construction. The bad news is, this is only enough 
money for half of the distance. So, in essence, we have half a 
bridge to energy security.
    There are some very real, very critical components of our 
energy infrastructure that are at huge risk today. Every day we 
wait to address them, our vulnerabilities not only continue, 
but increase, as our coasts and our communities wash away.
    Thanks for this opportunity.
    [The prepared statement of Mr. Falgout follows:]

           Prepared Statement of Ted Falgout, Port Director, 
                           Port Fourchon, LA
    I am Ted Falgout, Port Director of Port Fourchon, Louisiana's 
southern-most Port sitting on the Gulf of Mexico.
    I am going to focus my testimony on a former distributary of the 
Mississippi River, the Bayou Lafourche Corridor, its uniqueness, 
vulnerability and why this rapidly eroding piece of real estate should 
be of great concern to all of us.
    As significant as the GOM is to this country's energy supply, one 
would think its energy support infrastructure would be distributed 
rather widely across the Gulf Coast. This is simply not so. 80% of the 
oil and 87% of the natural gas comes from offshore Louisiana. And due 
to the expansive wetlands and uniqueness of the Mississippi River delta 
building process, there are only 3 corridors in all of Louisiana that 
allow you highway access to the Gulf.
    Port Fourchon has evolved into the most significant energy support 
facility on the GOM. It services over 90% of the deepwater activity in 
the Gulf, 45% of the shelf activity and is the support base for LOOP, 
the Louisiana Offshore Oil Port which handles 13% of the nation's 
foreign oil. The pipeline infrastructure that connects to 50% of the US 
refining capacity runs through our Port.
    At the end of the day, this remote piece of real estate plays some 
key role in furnishing this country with 15-18% of its total oil 
supply, both foreign and domestic as well as a significant part of its 
seafood production.
    I hope I have impressed you with the significance of this corridor, 
now let me get to the true purpose of this hearing, Impact of Climate 
Change on this obvious piece of critical energy infrastructure.
    The Lafourche Corridor, as a result of being one of the most recent 
Miss. River delta lobes (less than 7,000 years old) is experiencing one 
of the highest rates of subsidence in the world. Therefore our relative 
sea level rise is more than twice that of most other coastal areas. 
With much of the southern reach of this critical corridor barely above 
sea level today, the need for action is immediate and if not addressed, 
the vulnerability of this nation's energy security will increase 
exponentially. A price already being factored in today's record gas 
prices.
    A recent study by renowned economist Dr. Loren Scott, determined 
that in 2006, over $63 Billion worth of oil and gas was tied to this 
port. That was at $66 barrel oil! This year it will exceed $100 barrel 
of oil. He conservatively estimated a 3-week loss in services from Port 
Fourchon would lead to:

  <bullet> A loss of almost $10 billion in sales at US firms
  <bullet> A loss of $2.9 billion in household earnings
  <bullet> A loss of 77,440 jobs in the nation

    Just a 3 week disruption!!!
    By the way, it would include an estimated 21.6 cents per gallon 
increase in gasoline prices nationwide.
    Again, the chance of disruption is increasing daily as coastal land 
loss occurs. Without increased levee protection and infrastructure 
upgrades, we will simply be unable to sustain ourselves. Our greatest 
vulnerability exists in a 17 mile stretch of LA Highway 1 which 
connects the Port to the hurricane protection levee system inland. Only 
by elevating this highway, will there be a reduction in the 
vulnerability of this critical piece of energy infrastructure. The good 
news is that we have not stood idly by complaining. By agreeing to make 
this a toll road, selling 137 million in bonds, borrowing $66 million 
from the federal government, and with local, state and federal 
contributions, we have amassed over $300 million and are in 
construction. The bad news is, this is only enough money for half of 
the distance, so in essence we have half a bridge to energy security.
    I hope in this testimony that I have been able to point out that 
there are some very real, very critical components of our energy 
infrastructure that are at huge risk today and every day we wait to 
address them, our vulnerabilities not only continue, but increase as 
our coast and communities wash away.

    The Chairman. Thank you very much for your testimony.
    Mr. Drevna, go right ahead.

      STATEMENT OF CHARLES T. DREVNA, PRESIDENT, NATIONAL 
              PETROCHEMICAL & REFINERS ASSOCIATION

    Mr. Drevna. Thank you, Chairman Bingaman and members of the 
committee. It's a pleasure to be back in front of you again 
today.
    The safety and security of our employees, and our 
facilities, importantly--most importantly, our host 
communities, is paramount in our operations. We recognize, even 
more in the aftermaths of Hurricanes Katrina and Rita, the 
importance of this issue, and we appreciate the opportunity to 
discuss what the oil and gas community has done to further 
address the concerns over the past several years.
    As Mr. Falgout has already said, if I may summarize what he 
said, the Gulf Coast is America's energy heartland. The region 
is vital to America's ability to receive energy imports and 
refine oil domestically.
    Meteorologists have questioned the relationship between the 
storm intensity and climate change, but, in this context, it's 
absolutely appropriate to discuss our efforts to protect 
infrastructure from the elements.
    Katrina and Rita severely damaged the region's 
infrastructure and economy, to say nothing of the tragic loss 
of life and displacement of residents. The refining industry 
was not spared the effects, yet we responded quickly and 
effectively to the dangers and challenges posed by these 
storms.
    Katrina damaged offshore energy production facilities that 
were critically important to receiving imported oil supplies; 
refineries and pipelines that served as the major providers of 
refined and crude products to large parts of the country, 
effectively removing, temporarily, 10-plus percent of our 
Nation's gasoline supply. In spite of this serious damage, no 
signature long-lived transportation fuel shortage occurred 
during this period.
    The rapid return to service of major portions of the fuels 
industry may be attributed to two critical factors: quick 
action by the Federal Government to temporarily wave regulatory 
requirements, and release of crude oil from the SPR, as it is 
intended to be used; and, in addition, the effects of the 
dedicated employees of the oil and gas community, as well as 
the employers, who managed to return significant assets to 
service in a short timeframe. They deserve a lot of credit. 
Many facilities sheltered employees during the recovery process 
and provided supplemental housing allowances and loans to 
employees and their families.
    Refiners have significantly enhanced their storm 
preparation procedures in the wake of Katrina and Rita. Gulf 
Coast refineries have performed process analyses of the time it 
takes to enact a full facility shutdown procedure, telling them 
how long it takes to drain the tanks of inventory to prevent 
leakage, or fill them with water to ensure buoyance, and thus, 
minimize damage to the tanks and its surroundings.
    During the hurricane season, facilities monitor the 
projected path of the storms--the storm arc, so to speak--and 
react accordingly. Besides projected storm paths--because 
projected storm paths narrow as the storm moves closer to 
shore, facilities have different levels of reaction, depending 
upon how far the storm is out to sea. The process is based on 
the idea of a trip wire.
    In 2006, NPRA published a valuable crisis planning and 
response guide, titled ``Hurricane Security Operations'' for 
security at refineries and petrochemical facilities, to 
synthesize and share experiences and insights of personnel in 
order to inform and approve our preparations for hurricane 
season. The paper addresses pre-hurricane planning and recovery 
operations, and will be updated periodically as we draw from 
the lessons of the past and improve upon our already impressive 
ability to get facilities back online and operating safely.
    The refining community continues to evolve, and we will 
strive to face these complex challenges, but we need Congress's 
help to do so. By implementing sensible strategic policies, 
Congress can help guarantee America a secure, reliable, 
predictable, and, just as importantly, geographically diverse 
supply of energy.
    Necessary and prudent actions include the following: 
unlocking known reserves of domestic oil and gas resources, 
resisting the political temptation to manipulate market forces 
by imposing a harmful windfall profits tax or instituting price 
controls to address unsubstantiated price-gouging allegations, 
or repealing LIFO or eliminating foreign tax provisions. Please 
repeal the renewable fuels mandate, suspend the tariff on 
imported ethanol, and expedite permitting procedures for new 
refinery construction and facility refinery capacity additions.
    In light of the concerns we've heard today with regard to 
the concentration of energy-producing complexes in the Gulf 
Coast, and by following the example of Louisiana, we could 
clearly diversity our energy resources. By doing so, we have 
steady access to our own domestic natural resources and also 
reduce our dependence on foreign imports.
    Thank you very much for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Drevna follows:]

     Prepared Statement of Charles T. Drevna, President, National 
                  Petrochemical & Refiners Association
    Chairman Bingaman, Ranking Member Domenici, and members of the 
Committee, thank you for the opportunity to testify today regarding 
critical energy infrastructure in coastal regions.
    NPRA, the National Petrochemical & Refiners Association, is a 
national trade association with nearly 500 members, including those who 
own and operate virtually all U.S. refining capacity and most U.S. 
petrochemical manufacturers. In addition to producing refined petroleum 
products such as gasoline, jet fuel, and home heating oil, our member 
companies provide consumers with a wide variety of products and 
services used daily in their homes and businesses--products used in 
making everything from plastics to clothing to medicine to computers.
    Our member companies help keep our economy strong through the 
critical products they provide to American consumers, but also by 
providing tens of thousands of jobs across the country. The domestic 
refining industry currently employs more than 65,000 people\1\ while 
supplying our nation with over 350 million gallons of motor gasoline 
per day, in addition to many other petroleum products.
---------------------------------------------------------------------------
    \1\ U.S. Department of Energy--Energy Efficiency and Renewable 
Energy. Industrial Technologies Program--Petroleum Refining Industry of 
the Future http://www1.eere.energy.gov/industry/petroleum--refining/
printable--versions/profile.html
---------------------------------------------------------------------------
    There are currently 149 refineries operating in the United States. 
The total number of refineries has decreased by 50 percent over the 
past 25 years as smaller, less efficient refineries were closed for 
economic reasons. During that same time period, total refinery output 
has increased by more than 25 percent. In order to meet the growth in 
demand for our products, we have added the aggregate equivalent of one 
new world-class refinery per year for each of the last 15 years through 
expansion of existing facilities. Petroleum refining is the America's 
single largest source of energy products, supplying 39% of total U.S. 
energy demand and 97% of transportation fuels.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    Refining industry investments and reinvestments are also 
significant, and the domestic oil and natural gas sector's investments 
have actually exceeded earnings in recent years. During the period of 
1992--2006, the oil and gas community invested $1.25 trillion dollars, 
compared with net income of $900 billion.\3\ Many of these investments 
were made to expand refining capacity, and also to make our products 
and processes even safer, more efficient, and more environmentally 
friendly than they already are.
---------------------------------------------------------------------------
    \3\ ``Investment and Other Uses of Cash Flow By The Oil Industry, 
1992--2006,'' prepared by Ernst & Young LLP for the American Petroleum 
Institute.
---------------------------------------------------------------------------
                   the significance of the gulf coast
    The Gulf Coast is America's energy heartland. According to the U.S. 
Energy Information Administration (EIA), the Gulf of Mexico, in 2005, 
produced 1.582 million barrels per day (mmb/d) of federal crude 
production, about 28.5 percent of the U.S. total crude production, and 
produced 10.4 billion cubic feet (bcf/d) of natural gas per day, 19.2 
percent of the nation's total natural gas production. In addition to 
production, the Gulf Coast is also vital to America's ability to 
receive energy imports and refine oil domestically. In 2005, 60.4 
percent of America's crude oil imports came through the Gulf Coast 
(more than 10 percent alone came in through the Louisiana Offshore Oil 
Port.) The region also contained 8.068 million barrels per day of 
refining capacity, 47.4 percent of the nation's total refining 
capacity.
                  hurricanes katrina and rita in 2005
    On August 28, 2005, Hurricane Katrina swept across the Gulf Coast 
with tremendous impact. More than 1,800 people lost their lives, 
hundreds of thousands of people were displaced from their homes, and 
almost three million people lost access to electricity. Katrina was 
followed by Hurricane Rita on September 24, which also resulted in mass 
evacuations and significant damage. Both hurricanes severely damaged 
the region's infrastructure and economy. The refining industry was not 
spared the effects of these hurricanes, yet we responded quickly and 
effectively to the dangers and challenges posed by these storms.
    According to the U.S. Mineral Management Service (MMS) report of 
September 2, 2005, 88.53 percent of Gulf crude oil production and 72.48 
percent of its natural gas production was ``shut-in'' or temporarily 
offline. Hurricane Katrina damaged offshore energy production, 
facilities that were critically important to receiving imported oil 
supplies, refineries in the affected states and beyond, and pipelines 
that served as major providers of refined and crude products to large 
parts of the country. This damage effectively temporarily removed 10 
percent of the nation's gasoline supply by its impact on refining 
capacity.
    Ten refineries constituting 12 percent of America's total refining 
capacity (producing 2 mm/b/d) were directly affected by Hurricane 
Katrina and forced to temporarily suspend operations. Many other 
refineries, while not as badly damaged, were forced to reduce their 
operations as well.
    The effects of Katrina were not limited to the Gulf Coast. Indeed, 
the widespread electricity outages caused by storm damage affected 
industry operations through the country. The most serious of these 
impacts was the temporary closure of three major pipelines:

          1. The Colonial Pipeline, 5,500 miles of pipeline originating 
        in Houston and ending in New York Harbor, which carries a daily 
        average of 100 million gallons of gasoline, diesel and other 
        petroleum products from refineries in the Gulf to customers in 
        the Southeast and Eastern United States.
          2. The Plantation Pipe Line, 3,100 miles of pipeline, which 
        performs a similar function along a slightly different route, 
        delivering a total of 620,000 barrels (26 million gallons) of 
        refined petroleum products per day to Birmingham, Alabama; 
        Atlanta, Georgia; Charlotte, North Carolina; and Washington, 
        D.C., among other cities.
          3. The Capline Pipeline, which carries 1.1 million b/d of 
        crude oil to refineries in the Midwest where it is refined to 
        produce gasoline, diesel and other petroleum products for 
        distribution primarily in the Midwest. The effect of the 
        closure of this pipeline was particularly dramatic, as much of 
        the Midwest's refineries, responsible for 16 percent of 
        America's refining capacity, were unable to secure crude oil 
        supplies and thus unable to function at full capacity.

    All three of these pipelines were completely or partially out of 
service due to the disruption of electricity supplies by Hurricane 
Katrina. As a result, the major supply lines of refined products to the 
Southern and Eastern states were unavailable for shipment in whole or 
in part during the initial period after the storm.
                             the aftermath
    In spite of the serious damage these storms inflicted on the 
domestic refining industry, no significant, long-lived transportation 
fuel shortage occurred during this period. The rapid return to service 
of significant portions of the transportation fuels industry may be 
attributed to two critical factors: quick action by the federal 
government to temporarily waive regulatory requirements and release 
crude oil from the Strategic Petroleum Reserve; and the efforts of the 
dedicated employees of the oil and gas community, as well as their 
employers, who managed to return significant assets to service in a 
short time.
    Federal authorities took several decisive actions to help relieve 
the many energy-related problems left in the wake of Hurricane Katrina.
SPR Release
  <bullet> The Administration released 9 million barrels of crude oil 
        from the Strategic Petroleum Reserve (SPR) to assist refiners 
        who were short crude supplies as a result of hurricane damage. 
        The recipients used this crude to manufacture more gasoline, 
        diesel, jet fuel and home heating oil to supply consumers 
        across the nation. This is precisely the type of event meant to 
        trigger SPR release and demonstrated the importance of careful 
        SPR management.
Waivers to Increase Fuel Flexibility
  <bullet> EPA provided temporary fuel waivers that made it easier to 
        provide motor fuels to affected areas. This action pertained to 
        both gasoline summer volatility and diesel sulfur 
        specifications, and helped alleviate some of the supply 
        problems in these areas by increasing the available supply of 
        both domestic production and imports.
Jones Act Waiver
  <bullet> The Department of Transportation temporarily lifted Jones 
        Act requirements to allow non-U.S. flag vessels to transport 
        much needed refined products from one U.S port to another.
IEA (International Energy Agency) Exchange
  <bullet> IEA made available 60 million barrels of petroleum. This 
        provided relief in the form of refined products (gasoline, 
        diesel, jet fuel, home heating oil) which were much needed due 
        to disrupted supplies from several refineries.

    The refining industry also took several steps to recover from the 
shock of Hurricanes Katrina and Rita.
    The safety of employees and their employees' families was the first 
priority. Many plants sheltered employees during the recovery process 
and provided supplemental housing allowances and loans to employees and 
their families. Indeed, many plants that were ``shut-in'' had employees 
live on-site for several weeks. The Valero Port Arthur plant housed 
over 1,000 of its workers while the plant was brought back online.\4\
---------------------------------------------------------------------------
    \4\ Herrick, Thaddeus. ``Restarting A Refinery Requires It To House 
Hundreds of Workers.'' Wall Street Journal. 11 October 2005.
---------------------------------------------------------------------------
    The refining industry also temporarily expanded its workforce at 
affected plants, bringing in employees from unaffected plants as well 
as contractors. Restarting a plant is more complex and potentially 
dangerous than normal operations because it involves increased heat and 
pressure. Consequently, restarting a refinery requires additional 
workers to monitor and perform necessary procedures.\5\ The restart 
process was particularly challenging for several plants because 
flooding ruined the electric pumps that sent crude oil throughout the 
refinery complex, and therefore had to be rebuilt before the plant 
could be restarted safely.\6\
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ Gold, Russell and Thaddeus Herrick. ``Damage to Oil and Gas 
Facility Pushes US Closer To Energy Crisis.'' Wall Street Journal. 2 
September 2005.
---------------------------------------------------------------------------
    In addition to bringing damaged plants on-line as soon as possible, 
the refining industry also worked to increase the output of its non-
damaged plants in order to meet demand. For many plants, this meant 
delaying planned maintenance in order to continue production. 
Refineries typically perform scheduled maintenance throughout the year 
in order to maintain and repair their equipment, but in the wake of 
Hurricanes Katrina and Rita many refining plants delayed this planned 
maintenance so they could supplement reduced refining capacity.\7\
---------------------------------------------------------------------------
    \7\ Herrick, Thaddeus. ``Refiners' Tough Call: Do Fall Maintenance 
Or Pump Flat-Out?'' Wall Street Journal. 28 September 2005.
---------------------------------------------------------------------------
                     hurricane security operations
    There were numerous lessons learned by those in the industry 
directly or indirectly affected by the hurricanes. As one security 
manager said, ``We hoped we were as prepared as possible, but as with 
any emergency, there are always going to be areas for improvement.'' 
Indeed, after Hurricane Katrina, many companies reported being better 
prepared for Hurricane Rita.
    Following the 2005 hurricane season, NPRA published a white paper 
titled ``Hurricane Security Operations'' to synthesize and share the 
experiences and insights of security personnel in order to inform us 
and improve our preparations for the hurricane seasons to come. The 
paper is divided into two sections: pre-hurricane planning (which 
constitutes the major focus of the paper) and recovery operations.
    The paper serves as a valuable crisis planning and response guide 
for security at refineries and petrochemical facilities in the event of 
a major hurricane or other natural or man-made disaster. It will be 
updated periodically as industry continues to learn the lessons of past 
crises and improve upon its already impressive ability to get 
facilities back on-line and operating safely.
    NPRA is pleased to have made this paper available on line and free 
to the public on our website at http://www.npra.org/publications/
general/Hurricane_Security_Operations.pdf.
            continued safety improvements at u.s. refineries
    U.S. refineries have made several changes in their storm 
preparation procedures in the wake of Hurricanes Katrina and Rita. 
Almost every refinery in the Gulf Coast has performed process analyses 
of the time it takes the facility to enact a full shutdown procedure, 
which tells them how long it takes to drain the tanks of inventory (to 
prevent leakage) or fill them with water (to ensure buoyancy and 
minimize damage to the tanks and surrounding equipment.) During 
hurricane season, the facilities monitor the projected path of the 
storm, the ``storm arc'' and react accordingly. Because projected storm 
paths narrow as the storm moves closer to shore, facilities have 
different levels of reaction depending on how far the storm is out to 
sea. The process is based on the idea of a trip wire--if it takes a 
plant 36 hours to empty its tanks of inventory and fill them with 
water, and if the plant is in the storm arc 36.5 hours out, shutdown 
procedures are enacted.
    The safety record of American refineries continues to improve. The 
overall trend is for reduced recordable incidents and greater employee 
safety. NPRA's compilation of industry statistics shows that the rate 
of total recordable incidents has declined dramatically in the last two 
decades, and reached an all-time low last year.\8\
---------------------------------------------------------------------------
    \8\ NPRA Report Of Occupational Injuries And Illnesses For The Year 
2007. Total recordable incidence rate is determined by Total Recordable 
Cases x 200,000 (base number of hours worked for 100 full time 
employees.)
---------------------------------------------------------------------------
    The refining industry's safety record compares favorably to other 
industries. According to the Department of Labor, private workplace 
total recordable incidents in 2006 averaged a rate of 4.4 total 
incidents, compared to the refining industry's 1.1 rate.\9\
---------------------------------------------------------------------------
    \9\ Department of Labor, Bureau of Labor Statistics. Workplace 
Injuries and Illnesses in 2006. October 16, 2007. http://www.bls.gov/
iif/oshwc/osh/os/osnr0028.pdf
---------------------------------------------------------------------------
                           price fluctuations
    Two important factors must be kept in mind when examining the price 
of refined products: the cost of crude oil and competition.
    The cost of crude is the single greatest driver of the petroleum 
product prices. In June of 2005, the U.S. Federal Trade Commission 
released a landmark study entitled: ``Gasoline Price Changes: The 
Dynamic of Supply, Demand and Competition.'' This study determined that 
``worldwide supply, demand, and competition for crude oil are the most 
important factors in the national average price of gasoline in the U.S. 
and the ``the world price of crude oil is the most important factor in 
the price of gasoline. Over the last 20 years, changes in crude oil 
prices have explained 85 percent of the changes in the price of 
gasoline in the U.S.'' Further, according to March 2008 EIA data, crude 
oil constitutes 72% of the price of a gallon of gasoline, taxes 13%, 
followed by refining and distribution and marketing, which both account 
for 8% respectively.\10\
---------------------------------------------------------------------------
    \10\ EIA's ``Gasoline and Diesel Fuel Update,'' March 2008, http://
tonto.eia.gov/oog/info/gdu/gasdiesel.asp
---------------------------------------------------------------------------
    Despite assertions that mergers have reduced competitiveness and 
led to an increase in fuel prices, the reality is that is that the U.S. 
refining industry is highly competitive. Fifty-four refining companies, 
hundreds of wholesale and marketing companies, and more than 165,000 
retail outlets compete in the U.S. market. The largest U.S. refiner 
accounts for just 12% of America's refining capacity. No one company, 
or group of companies, sets gasoline prices. Rather, in the U.S. 
refining industry, the laws of supply and demand drive competitive 
behavior and determine pricing.
    NPRA and its members understand public and congressional concern 
regarding high gasoline prices. This is especially the case because 
refiners must purchase crude and therefore are the first to feel the 
pinch of high oil prices. Simply put, high crude prices translate into 
higher costs for refiners and the American consumer.
    Policymakers, however, should be cautious about taking any action 
that suggests that price controls are the answer to today's gasoline 
market conditions. The nation's ten-year experiment with government 
intervention into the fuel market during the seventies led to gasoline 
shortages and long lines at gas stations. Consumers were prohibited 
from purchasing gasoline on certain days of the week. That history does 
not suggest that price controls would be an acceptable template for 
congressional action.
    The most effective way to maintain adequate gasoline supplies at 
reasonable prices is continued reliance on market mechanisms, not price 
regulation or other actions that interfere with and distort market 
realities that both refiners and consumers must face.
    A recent, but very compelling example of the need to rely on 
continued market mechanisms was the temporary price increase during the 
immediate aftermath of Hurricanes Katrina and Rita. These nationwide 
price increases moderated consumer demand, attracted increased refined 
product imports, and motivated unaffected U.S. refiners to augment 
their production. Without the price increase, there would have been 
little incentive to attract increased supply, and long-lived and 
widespread fuel shortages may have occurred. Instead, the market acted 
and moderated the price of gasoline and returned retail prices to pre-
storm levels by the end of November 2005.
    The Federal Trade Commission investigated charges of post-Katrina 
``price-gouging'' and found ``no evidence to suggest that refiners 
manipulated prices through any of these [illegal] means.'' Instead, it 
found that ``refiners responded to market prices by trying to produce 
as much higher-valued products as possible, taking into account crude 
oil costs and physical characteristics.'' Although the prices increases 
might have been surprising and painful to many, they were a natural 
consequence of the widespread effects of Hurricane Katrina and helped 
mitigate demand in a supply-short environment.
    The charge of ``price-gouging'' is not new to the refining 
industry. Dozens of investigations have been launched at the state and 
Federal levels and in each instance the industry has been cleared of 
charges of ``price-gouging.'' Then, as now, allegations of price-
fixing, price-gouging or other illegal practices are false.
            current state of the domestic refining industry
    149 refineries are currently operating in the United States. These 
refineries, located in 33 states, have a combined capacity of over 17.4 
million barrels per day (b/d).\11\ Although a new, ``green-field'' 
refinery has not been built in the United States since 1976, America's 
operable refining capacity continues to expand. While there are several 
factors that contribute to the lack of new refineries--enormous capital 
costs, rising commodity costs, environmental regulations, and sustained 
community resistance--America's refining capability continues to grow. 
The domestic refining industry has increased capacity over the past 
thirteen years. U.S. refining capacity on January 1, 1994 stood at 15.0 
million b/d and at 17.4 million b/d on January 1, 2007. This increase 
of 2.4 million b/d represents an aggregate growth of 16 percent or, in 
simpler terms, the addition of a large-scale (185,000 b/d) refinery 
each year.\12\
---------------------------------------------------------------------------
    \11\ EIA, July 2007.
    \12\ EIA: the size of an average U.S. refinery on 1/1/07 was 
117,000 b/d.
---------------------------------------------------------------------------
    The Congressional Research Service reports that domestic refining 
margins in 2007 declined versus 2006 with several independent refiners 
experiencing significant losses in the fourth quarter of 2007. ``New 
capacity investments in refineries, one possible source of gasoline 
price relief for consumers, are likely to be slowed by the poor profit 
performance of the refining sector. If new capacity does not come on 
line the need for imported gasoline will remain a key factor in 
avoiding shortages in the U.S. market.''\13\
---------------------------------------------------------------------------
    \13\ Congressional Research Service. ``Oil Industry Profit Review 
2007,'' RL34437, April 4, 2008, p. CRS-8.
---------------------------------------------------------------------------
                       recommended policy actions
    The refining industry continues to evolve, and we will strive to 
face these complex challenges. Yet we need the help of Congress to do 
so. By implementing sensible, strategic policies, Congress can help 
guarantee America a secure, reliable and predictable supply of energy. 
Necessary and prudent actions include the following:
Increase supplies of domestic oil and gas resources
  <bullet> Refineries and other important onshore facilities have been 
        welcome in limited areas throughout the country, including the 
        Gulf Coast. However, policymakers have restricted access to 
        much-needed offshore oil and natural gas supplies in the 
        eastern Gulf and off the shores of California and the East 
        Coast. Congress should permit oil production in ANWR.
  <bullet> These areas must follow the example of Louisiana and many 
        other states in sharing their energy resources with the rest of 
        the nation. In light of the concerns regarding the 
        concentration of energy producing complexes along the Gulf 
        Coast, it is becoming increasingly clear that we need to 
        diversify our energy sources. By doing so we ensure steady 
        access to our own natural resources, and also reduce our 
        dependence on foreign imports.
  <bullet> Simply put, this additional supply is sorely needed.
Repeal of the renewable fuels mandate
  <bullet> here are serious questions whether to continue a mandate for 
        increasing amounts of corn ethanol and biodiesel in the midst 
        of a global food crisis.
  <bullet> Recent studies have explained the negative impacts biofuels 
        mandates are having on the environment
  <bullet> USDA projects that corn production in 2008 will be 7.3% 
        below the record level in 2007, while domestic ethanol plants 
        will use 33% of this year's corn harvest. This ``will keep the 
        price of corn in record territory into 2009.''\14\ This will 
        also contribute to higher costs for ethanol-blended gasoline.
---------------------------------------------------------------------------
    \14\ Kilman, Scott. ``U.S. Corn Production Seen Dropping, Though 
More to be Used for Ethanol'' Wall Street Journal 10 May 2008.
---------------------------------------------------------------------------
Congress should suspend the tariff on imported ethanol
  <bullet> Given the significant strain on our nation's fuel supply 
        system associated with the dramatically increased ethanol 
        mandate, Congress should suspend the tariff on imported ethanol 
        in order to maximize the supply of renewable fuels. This is not 
        a new position for NPRA; NPRA advocated this position in 
        testimony before the Senate Commerce, Science, and 
        Transportation Committee in May 2006, before the Senate Energy 
        and Natural Resources Committee in February, and before the 
        House Energy and Commerce Committee last week. Removing the 
        tariff is critical to providing refiners more flexibility that 
        will be desperately needed to comply with the newly expanded 
        ethanol mandate.
Congress should preempt state biofuels mandates
  <bullet> The present enthusiasm for renewable fuels has resulted in 
        several states and even municipalities adopting local mandates. 
        Local mandates will impose additional strain on the ethanol 
        distribution system and increase costs for shipping and 
        storage.
  <bullet> The existing federal renewable fuels standard mandate with 
        its credit-trading provisions contains a degree of freedom that 
        allows the distribution system to operate at a low-cost optimum 
        by avoiding infrastructure bottlenecks (such as lack of storage 
        or rail capacity). Mandating biodiesel usage in specific areas 
        forces a distribution pattern that is less flexible, and 
        therefore has less capability to minimize costs.
  <bullet> Further, these mandates create boutique markets requiring 
        special fuel formulations and transportation logistics, thereby 
        balkanizing the national fuel market. If Congress wishes to 
        allow for as diverse a supply of alternative fuels as possible, 
        and to promote as much flexibility in the system as possible, 
        state and local biofuels mandates should be preempted.
Resist tinkering with market forces, including imposition of ``windfall 
        profits'' taxes, LIFO repeal or elimination of foreign tax 
        provisions
  <bullet> Market interference that may initially be politically 
        popular leads to market inefficiencies and unnecessary costs. 
        Policymakers must resist turning the clock backwards to the 
        failed policies of the past.

    Experience with price constraints and allocation controls in the 
1970s demonstrates the failure of price regulation, which adversely 
impacted both fuel supply and consumer cost. The state of Hawaii 
cancelled its less than one-year old gasoline price regulation because 
it led to higher prices and supply uncertainty. A windfall profits tax 
would discourage investment in refineries, which is needed to expand 
domestic production capacity and produce cleaner fuels. Such a tax 
would also place domestic upstream producers at a further disadvantage 
to state-owned oil companies, resulting in more, not less imports of 
foreign supplies. A recent Congressional Research Service report states 
that ``[t]he combination of high crude oil prices that raised 
[independent refiners' and marketers'] costs and the inability to 
quickly pass cost increases on to consumers lowered refining margins, 
resulting in generally declining profits'' in 2007.\15\
---------------------------------------------------------------------------
    \15\ Congressional Research Service. RL34437, ``Oil Profit Industry 
Review 2007,'' April 4, 2008, summary.
---------------------------------------------------------------------------
Review permitting procedures for new refinery construction and refinery 
        capacity additions
  <bullet> Seek ways to encourage state authorities to recognize the 
        national interest in increased domestic refining capacity by 
        reducing the time needed to permit expansions and other 
        refinery projects.
                               conclusion
    NPRA, its members, and the entire oil and gas community are 
dedicated to working cooperatively at all levels to ensure an adequate 
supply of clean, reliable and affordable petroleum products for 
America. We stand ready and willing to work with Congress, and are 
committed to serving American consumers. I appreciate this opportunity 
to testify today and welcome your questions.

    The Chairman. Thank you very much.
    Ms. Edgar, why don't you go right ahead.

  STATEMENT OF LISA POLAK EDGAR, COMMISSIONER, FLORIDA PUBLIC 
              SERVICE COMMISSION, TALLAHASSEE, FL

    Ms. Edgar. Thank you. Good morning, Chairman Bingaman, 
committee members. Thank you, to Senator Martinez, for his 
introduction and for his support.
    On behalf of Governor Charley Crist, I am so pleased to be 
here today and to share with you the impacts that severe storms 
have had on Florida's energy infrastructure, and the steps that 
we have taken to be better prepared.
    The 2004 and 2005 hurricane seasons were the most 
destructive in Florida's history. In a 6-week period in 2004, 
Florida was hit by four major hurricanes. Charlie, Frances, and 
Jeanne overlapped in the central part of Florida. Hurricane 
Ivan crossed the northwest panhandle. The very next year, we 
had hurricanes Dennis, Katrina, Rita, and Wilma. Ranging in 
strength from category 2 to category 4, together these eight 
storms caused more than $25 billion in private property damage 
and over $2 billion in restoration costs for Florida's 
investor-owned electric utilities.
    The widespread damage to Florida's electrical system 
provided strong evidence of its vulnerability to hurricanes and 
also dramatically illustrated how important it is to get the 
power back on. The sooner that businesses and schools can 
function, the sooner families and communities can have some 
normalcy and local economies can recover.
    In response, the Florida Public Service Commission 
initiated a multifaceted approach to address future storm 
readiness and storm hardening, addressing both lessons learned 
by individual utilities and a more comprehensive statewide 
perspective to the grid. For each action, the Commission 
carefully balanced the need for a robust infrastructure with 
the need to minimize the rate impact for utility customers.
    Our approach includes an annual pre-hurricane-season 
preparedness briefing, inspection and replacement regime for 
wooden poles and other facilities, reliability reports, and a 
10-point storm preparedness initiative.
    Each Florida electric utility--investor-owned, municipal, 
and rural cooperatives--are required to present an annual 
hurricane preparedness briefing to the Commission. We just had 
our briefing for this year, and I am so pleased to be able to 
tell you that Florida's utilities are well prepared for the 
upcoming hurricane season.
    In response to concerns in past storms that wooden utility 
poles had not adequately withstood hurricane winds, resulting 
in more downed lines, the Commission imposed a systematic pole 
inspection program. In addition, our 10-point plans address 
vegetation management, joint-use attachments, transmission 
inspection and hardening, GIS, data collection, and 
coordination with local governments. A detailed discussion of 
all of these initiatives is in my written testimony.
    The Commission also adopted new rules in three areas: 
encouraging utilities to exceed minimum engineering standards 
in vulnerable coastal areas; storm hardening plans to enhance 
reliability, to reduce restoration costs and outage times, and 
to make adjustments as data and experience indicated; and also, 
more cost-effective undergrounding, where appropriate.
    As a high-growth State, Florida is assessing generation 
options to meet future growth in demand. We're looking for 
reliable, cost-effective, and diverse sources. The PSC recently 
approved a need petition for two new nuclear units, and we have 
a request pending before us for two more additional units. Our 
experience showed little damage to nuclear and other generation 
facilities. Measures to harden transmission and distribution 
will benefit all communities.
    Three points to end with. The first, and perhaps the most 
critical, is that we must maintain a high level of storm 
preparedness. All of us--government, utilities, citizens--must 
not become complacent after a quiet storm season. We know that 
intense storms will occur again, and we've learned firsthand 
that the rapid response of our utilities is critical to the 
safety of our people and to the recovery of our communities and 
our businesses. Second, strengthening our electric 
infrastructure will be an ongoing process. Third, the goal of 
hardening our electric infrastructure to improve reliability, 
to reduce storm damage, outages, and restoration time, must 
include cost-benefit data and analysis. Our customers deserve 
good financial value as we move forward.
    Thank you for this opportunity.
    [The prepared statement of Ms. Edgar follows:]

 Prepared Statement of Lisa Polak Edgar, Commissioner, Florida Public 
                  Service Commission, Tallahassee, FL
    Good morning Chairman Bingaman and members. Thank you for the 
opportunity to speak before you today and thank you to Senator Martinez 
from Florida for his support.
    On behalf of Governor Charlie Crist, it is my privilege to share 
with you our experience with the impacts severe storms can have on 
critical energy infrastructure and what Florida has done to be better 
prepared.
    My name is Lisa Edgar. I am a commissioner on the Florida Public 
Service Commission, which regulates electric utilities. I was appointed 
to the Commission in January, 2005, just after the unprecedented 2004 
hurricane season and just in time for the numerous storms of 2005, and 
I served as Chairman in 2006 and 2007.
                    the 2004-2005 hurricane seasons
    The 2004 and 2005 hurricane seasons were the most destructive in 
Florida's history. During a six-week period, from August 13 through 
September 25, 2004, Florida suffered from the affects of an 
unprecedented four major hurricanes. The paths of Hurricanes Charley, 
Frances, and Jeanne overlapped in the central part of Florida. 
Hurricane Ivan crossed the northwestern panhandle. Ranging in strength 
from category 2 to category 4, together these four storms caused more 
than $17.5 billion in damages to private property (homes and 
businesses) and $1.3 billion in restoration costs for Florida's 
investor-owned electric utilities (distribution and transmission).
    Similarly, in 2005, Hurricanes Dennis, Katrina, Rita, and Wilma 
caused over $7.2 billion in private property damage and approximately 
$1 billion in investor-owned electric utility restoration costs. The 
widespread damage to Florida's electrical system in 2004 and 2005 
provided strong evidence of its vulnerability to a hurricane's fury. In 
the storms' aftermaths, clean-up and restoration of service was 
accomplished in record time and involved a peak work force of over 
27,000 utility volunteers from as far away as California and Canada. 
This effort also dramatically illustrated how important it is to get 
the power back on--the sooner businesses and schools can function, the 
sooner families and communities can have some normalcy and local 
economies can recover.
  commission's multi-faceted approach to storm readiness and hardening
    In January 2006, the Florida Public Service Commission initiated a 
multi-faceted approach to address future storm readiness and storm 
hardening beginning with a workshop to explore the lessons learned by 
all electric utilities during the past two hurricane seasons.

  <bullet> Storm readiness includes the operational plans and 
        procedures to make sure that utilities are prepared--in advance 
        of each hurricane season--with adequate equipment and labor 
        resources to quickly and efficiently restore service to their 
        customers.
  <bullet> Storm hardening means upgraded design and construction 
        practices, as well as maintenance practices, so that electric 
        facilities are better able to withstand high winds, storm 
        surges, and flooding.

    The Commission's multi-faceted approach to storm preparation 
includes several actions designed to provide a higher level of 
preparedness and hardening of the state's electric infrastructure. This 
approach addressed both lessons learned by individual utilities, and a 
more comprehensive, statewide perspective. For each action, the 
Commission carefully balanced the need for developing a robust 
transmission and distribution system with the need to moderate rate 
impacts to utility customers. The Commission's multi-faceted initiative 
includes:
Annual Pre-Hurricane Season Hurricane Preparedness Briefing
    Each Florida electric utility--including investor-owned utilities, 
municipal electric utilities, and rural electric cooperatives--is 
required to present an annual Hurricane Preparedness Briefing at a 
Commission workshop prior to each hurricane season to gauge their storm 
readiness. Our briefing this year was held on May 1, and I am pleased 
to report Florida's utilities are well prepared for the upcoming 
hurricane season.
Inspections and Replacement of Wooden Poles
    In response to concerns that wooden utility poles had not 
adequately withstood hurricane winds resulting in more downed lines, 
the Commission imposed a more thorough and systematic pole inspection 
program. The Commission required an eight-year wooden pole inspection 
process for all investor-owned electric utilities and local exchange 
telephone companies. Each company is required to file, by March 1, an 
annual inspection report.
Annual Distribution Service Reliability Reports
    Each investor-owned utility is required to file, by March 1 of each 
year, a report summarizing its reliability performance data for the 
distribution services provided to customers. Report requirements 
include overall system reliability data, as well as storm-related 
impacts. The results of each utility's storm hardening activities are 
also to be included in their Annual Distribution Service Reliability 
Reports.
Ten Point Storm Preparedness Initiatives
    On April 4, 2006, the Commission voted to require the investor-
owned utilities to file plans and implementation costs for ten ongoing 
storm preparedness initiatives. After reviewing the plans, the 
Commission required each IOU to implement programs for each of the ten 
initiatives, which include:

  <bullet> A three-year vegetation management cycle for all major 
        distribution circuits.
  <bullet> An audit of joint-use attachment agreements.
  <bullet> A six-year transmission structure inspection program.
  <bullet> Hardening of existing transmission structures.
  <bullet> A transmission and distribution geographic information 
        system.
  <bullet> Post-storm data collection and forensic analysis.
  <bullet> Collection of detailed outage data, differentiating between 
        the reliability performance of overhead and underground 
        systems.
  <bullet> Increased utility coordination with local governments.
  <bullet>  Collaborative research--between the IOUs, municipals, and 
        co-ops--on the effects of hurricane winds and storm surge.
  <bullet> A natural disaster preparedness and recovery program.

    A detailed discussion of each of the ten ongoing storm preparedness 
initiatives is contained in the Commission's Report to the Legislature 
on Enhancing the Reliability of Florida's Distribution and Transmission 
Grids During Extreme Weather, submitted in July 2007. A copy of this 
report* is attached as an exhibit to my testimony.
---------------------------------------------------------------------------
    * Report has been retained in committee files.
---------------------------------------------------------------------------
New Construction Standards
    As part of the comprehensive storm preparedness initiative, the 
Commission adopted new rules encouraging investor-owned utilities to 
exceed minimum accepted engineering practices of the National 
Electrical Safety Code (NESC) for facilities in areas most vulnerable 
to the effects of hurricanes. The rule also directs maximum use of 
easements and road rights-of-way by requiring new and replacement 
distribution facilities where there is safe and efficient access for 
installation and maintenance.
Storm Hardening Plans
    New rules were also adopted that require IOUs to file storm 
hardening plans every three years for review by the Commission. The 
objective is to enhance reliability while reducing restoration costs 
and outage times, and to make adjustments as data and experience 
indicate.
Undergrounding Initiatives
    Recognizing that, in some situations, it could be appropriate to 
convert existing overhead electric distribution systems to underground, 
the Commission adopted new rules for cost-effective installation of 
underground utilities.
    It is generally recognized that construction of underground 
electric distribution systems is more expensive than a comparable 
overhead system. Customers who request underground service are 
responsible for paying the difference between the cost of the 
underground project and the cost of a comparable overhead project. This 
cost difference, or contribution-in-aid-of-construction (CIAC), is 
often a barrier because it's expensive, and because the customer is 
required to pay the total amount upfront before construction begins.
    The Commission amended its rules to:

  <bullet> Require utilities to compare hardened overhead to hardened 
        underground facilities to ensure comparable costs.
  <bullet> Require utilities to include the cost differentials in long-
        term operating costs and benefits, including the costs and 
        benefits of storm restoration in the CIAC.
  <bullet> Share the costs of undergrounding of a specific location 
        with all ratepayers if it will provide quantifiable benefits to 
        customers outside the immediate area.
  <bullet>  Allow customers to pay the CIAC charges over time, through 
        approved utility tariffs, to address the ``sticker shock'' 
        often associated with the up-front costs of overhead to 
        underground conversion projects.

    Later this year, a new cost model being developed by Florida 
utilities and universities should be available to assist in the 
economic evaluation of future underground conversions.
                               conclusion
    I will conclude with a couple of observations. The first, and 
perhaps the most critical, is that Florida must maintain a high level 
of storm preparedness, regardless of the level of activity of the most 
recent hurricane season. The utilities, and citizens, must not become 
complacent, after a quiet storm season. We know that intense storm 
seasons will occur again and we've learned first hand that the rapid 
response of our utilities is critical to the safety of our people and 
to the recovery of communities and businesses.
    Second, strengthening Florida's electric infrastructure to better 
withstand storm impacts calls for a wide range of hardening activities 
that, in some cases, may take years to complete. Utilities have taken 
steps to harden critical infrastructure, such as hospitals and highway 
crossings, and more projects are planned for the future.
    Third, the goal of strengthening the state's electric 
infrastructure to improve reliability, and reduce storm damage, 
outages, and restoration time, must incorporate cost benefit data and 
analysis. Customers deserve good financial value as we move forward.
    Thank you again for the opportunity to share Florida's initiatives 
with this committee.

    The Chairman. Thank you all very much for the excellent 
testimony.
    Let me start--and we'll just do 5-minute rounds here on 
questions--let me start with you, Dr. Burkett. You talked about 
the Geological Survey's estimates, as I understand it, with 
regard to sea-level rise.
    Ms. Burkett. Yes, sir.
    The Chairman. What is the estimate? I mean, is there a 
consensus as to what we need to expect in the Gulf, on the West 
Coast, on the East Coast, with regard to sea-level rise at 
particular periods in our future?
    Ms. Burkett. Yes, sir. The IPCC has this global estimate, 
but it, of course, depends, like Ted was saying, on the 
elevation of the land surface. In this particular region, in 
the Gulf Coast, the land surface is sinking and sea level is 
rising. In Louisiana, the sea- level rise is a centimeter per 
year. In the past 100 years, only about a fifth of that is due 
to global sea-level rise; the rest is sinking. But, in the 
future, as sea-level rise accelerates two-, three-, or 
fourfold, depending largely on what happens in the ice sheets, 
the sea--you know, the land will be submerged much more 
rapidly.
    So, in the study area, between Mobile and Galveston, we had 
the low end of sea-level rise, which was more toward the 
Florida Panhandle, which was about 3 millimeters per year, and 
then you can double or triple that--basically, between 2 and 4 
feet, we think, is plausible.
    The Chairman. By what time?
    Ms. Burkett. 2050.
    The Chairman. By 2050. Two----
    Ms. Burkett. Because that includes----
    The Chairman. Two to four feet sea-level rise, and this 
is----
    Ms. Burkett. Relative sea-level rise, which includes the 
changes in the land surface.
    The Chairman. Is this in Alabama--Senator Sessions' State--
you're talking about, or where is this?
    Ms. Burkett. There are parts--well, it varies from one part 
of the coast to the other because of the geology. It's a little 
slower--the rate of sea-level rise is a little slower in the 
Mobile area compared to south Louisiana, because of the 
leveeing of the river and the other things that have happened 
there. In Galveston, the rate is also higher than it is in 
Mobile, because of groundwater withdrawals.
    The Chairman. Okay. To what extent is the projected 
increase in sea level being factored into decisions about 
location of infrastructure, either public infrastructure or 
private infrastructure?
    Ms. Edgar, is this something that you folks factor in when 
you give permits to put in new plants or put in new 
transmission facilities? Do you factor in what's expected to 
happen to the sea level?
    Ms. Edgar. Certainly. Our Department of Environmental 
Protection, that would do much of the analysis of the siting 
issues, would look at future conditions and environmental 
impacts, and impacts to those communities. Certainly, we have 
found, with the siting of generation facilities in particular, 
that the buffer areas that are required provide a good level of 
protection.
    The Chairman. Okay.
    Let me ask Dr. Wilbanks and Dr. Wallace, both, Is it your 
impression that the Federal Government--I mean, I know both of 
you work for laboratories that are contracted with the 
Department of Energy, but is this kind of a expected change 
being integrated into our planning in the future for Federal 
facilities and Federal infrastructure?
    Mr. Wilbanks. There is growing interest in looking at risks 
and vulnerabilities that can be addressed at fairly low cost. 
For example, the Department of Defense has a program that is 
now starting to look at climate-change implications for 
military installations in vulnerable areas, where it may be 
possible, for example, in an area that might be subject to sea-
level rise and storms in coastal areas, to assure that new 
construction is built so that it can handle sea-level rise and 
storm effects, so that the building stock that's in use 20 or 
30 years from now will be much more resilient to that then the 
building stock that's in place right now. So, there is that 
kind of thinking ahead that is beginning, but impact and 
adaptation actions are still at a fairly early stage in this 
country, compared with attention to mitigation.
    The Chairman. Dr. Wallace, did you have a point of view on 
this?
    Mr. Wallace. I think that there originally was a program to 
look at national infrastructure that was an EERE in DOE, and it 
moved to the Department of Homeland Security. Los Alamos and 
Sandia, in particular, have a joint program called NISAC to 
look at infrastructure, and it allows a powerful set of 
modeling tools in which you can do various scenarios. So, there 
is a lot of scenario- planning around looking at things like 
sea-level change. It's not necessarily climatic changes, but, 
as referenced in Dr. Burkett'--it could be subsidence, it could 
be what you would expect from a national disaster, should you 
remove a levee. So, there actually is quite a bit of scenario- 
planning to look at this. Again, in the end, you still have to 
make decisions about how you want to invest or not invest, and 
those aren't the decisions that the technical side actually 
does, but do give the tradeoffs and also the economic impacts.
    The Chairman. Okay. That's--my time's up.
    Senator Craig.
    Senator Craig. Mr. Chairman, where do we start? I've spent 
a lot of time, as have you, looking at predictions, 
projections, modeling as it relates to climate change and 
impact, rate of sea rise, and all of that. While I express 
concern about it, I'm as interested in making decisions that 
are a part of large investment schemes that bring about 
infrastructure in a way that obviously reflects that, and does 
so to sustain itself in the future.
    You know, living in Idaho, there was always a standard joke 
about California, when it came, not to climate change, Mr. 
Chairman, but to earthquakes, that owning property in Idaho was 
really a pretty good prospect, because ultimately it would 
become oceanfront property. We now might have to adjust that a 
bit.
    But, while that might be standard humor, certainly looking 
for higher ground, if you will, in part, is a reality that we 
ought to be concerned about. When it comes to the low-lying 
lands of the Gulf Coast and Louisiana, we've got some real 
problems, and I think you've spelled that out most clearly 
today, as it relates to what's there now and its capacity and 
its capability based on any given scenario.
    Let me, though, go back to the Pacific Northwest. Possibly 
you, Dr. Wilbanks, could respond to this. We believe, in the 
Pacific Northwest this year, we had record snowfall. In many 
areas of the Pacific Northwest, we recorded the highest 
snowfall ever in the history of recorded snowfall; not just in 
total fall, but in actual accumulation at a given point in 
time. So, it was predicted that we would have substantial 
runoff for the hydro systems of the Pacific Northwest this 
year. The runoff isn't coming. It is interesting that the 
combination of cooler temperatures and warmer days at times--
and we were predicting substantial flood scenarios in key areas 
that had historically had flood scenarios; they are not 
materializing, as we speak. In fact, some large reservoir 
systems are now predicting that they will barely fill, when 
they had expected to ``fill and spill.''
    Are you working with the Department of Energy and the 
Interior--as it relates to how we look at these water scenarios 
and how we look at additional capacity in system, as it relates 
to times of runoff and different kinds of combinations that 
would impact the hydro system? Certainly, the Bonneville Power 
Administration was looking at what appeared to be an ample 
water season, which may now not materialize.
    Mr. Wilbanks. I can offer a few comments on that, Senator. 
It's a very interesting point.
    First of all, one of the limitations of climate-change 
projections is that they tend to focus on averages, not on 
variability. One of the things we know about nature is that 
there's a great deal of variability in nature, and it's often 
the extremes that are the problems, not the averages. So, 
there's a challenge there in answering questions like this with 
the existing science.
    A second thing is that nature still has the capacity to 
surprise us, and that ought to make us all humble who think we 
know the answers to most nature society questions. The climate-
change projections that are available to us right now all say 
that, in the long run, snowfall in the western mountains will 
decline, on the average. That doesn't mean in every season, 
but, on the average, they will decline, which means that 
meltwater into the dry river basins of the West will decline, 
on the average. It suggests that, by, say, the last quarter of 
the century in the Columbia River Basin, there will be less 
water to go around to meet the needs for agriculture, for 
energy, and for urban development.
    A group at the University of Washington led by Ed Miles is 
doing a lot of research on regional climate-change implications 
for the Northwest. He suggests that by the year 2050 or shortly 
thereafter, the Pacific Northwest will need affordable 
desalination of seawater to meet needs for water for continued 
urban development on the Pacific West--the Northwest Coast of 
the United States So, there are challenges there. We're looking 
at--we don't know all the answers yet, but the point you're 
making about surprises is an important one for us to remember.
    Senator Craig. My time is running out. Let me just offer 
this as a concern. When we talked about the new study that's 
out, proposing a--wind energy capacity going up 20 percent of 
portfolio, it also suggested the need of a $20 billion worth of 
infrastructure upgrades in transmission to handle that, because 
wind oftentimes isn't where the current transmission is. You've 
got to connect it, and oftentimes you have to transport it even 
further than is current. I look at those combinations, that's a 
bit of a hurdle.
    Thank you all.
    The Chairman. Senator Landrieu.
    Senator Landrieu. Thank you.
    I'd like to start with just showing some graphs, if I 
could, some charts that I think might put some of this in 
perspective.
    If you could hold up the--this is the toe of the boot, I 
guess. If Louisiana is shaped like a boot, this is the toe of 
the boot, and, just to orient the committee members, this is 
Port Fourchon. Tom, if you could point to that. That's Port 
Fourchon, right there.
    Now, it's just a spit of land--I guess, 100 miles or so 
down that bayou. The bayou's about 100 miles--Ted, right?--from 
LaFourche. But you can see that--I mean, it's a--you can't see 
the road there, but the--Highway 1 starts there and goes all 
the way up. Actually, does the highway already run to Canada, 
all the way up to--we don't know. We think it might go all the 
way up through the country.
    Mr. Falgout. It's called ``the longest street in the 
world.''
    Senator Landrieu. But, it starts there. It's two lanes, and 
it basically sits at sea level now. We have been trying to get 
the Federal Government and the State of Louisiana to recognize 
the significance of this particular road to connect Port 
Fourchon, which 20 percent or 25 percent of the energy of the 
country comes through--if this small little port is shut down, 
it has huge impacts, as has been outlined.
    Mr. Chairman, for the life of me, I can't understand how 
the country can invest in, you know, ``The Big Dig'' in Boston 
and other--you know, in projects, and not realize that lifting 
this particular road, either with general-fund dollars, which 
is one option, but the other option that we've provided, which 
makes a lot of sense, is using a portion of the taxes generated 
by the industry that uses this port--not additional taxes, but 
the revenues, which is what revenue-sharing was all about.
    The other thing that this graph shows is--the red is the 
potential--or real land loss that's occurring. We are--have a 
project--Tom, if you'd point to Morganza, to the Gulf--to 
protect some of this infrastructure. This is Homer, right here. 
We're trying to get a levee built right here, and we have, now, 
several lawsuits pending and some problems with--although the 
Congress has taken action to build this levee, we've been 
trying to get this done for 40 years, and it's just one thing 
after another.
    Now, I want to put up the next poster to show you where the 
infrastructure is, because--the next one, not this one--well, 
actually, no, this one is the right one. I wish I could do this 
talking into the mic. But, the R's are where the refineries 
are, and you'll notice the big refineries are not on the coast, 
they're up, because they know to move away from the coast for 
protection. So, they're not on the beach, is what I'm trying to 
explain. We don't build refineries on the beach. But, we're 
building them where they need to be. The Mississippi River is 
that blue line, blue, swirly line. They have to be with a 
source of water. You have to be by a source of water to build a 
refinery. So, the industry is doing a pretty good job of siting 
their refineries where they need to be.
    The little F's are other infrastructure that is defined as, 
sort of, other petrochemical infrastructure. But, as you can 
see, this is the infrastructure necessary to move oil and gas. 
These are pipelines. They only exist beneath Louisiana, Texas, 
and Mississippi. This--there's nothing like this off the coast 
of Florida or in the West or on the East Coast or on the West 
Coast. This is the infrastructure that is laid down.
    Now, we have two choices. We can protect this, or we can 
move it. Both are expensive, but I'd suggest protecting it is 
less expensive than moving it, because, first, there's no other 
place in the country you can move it to, and the resources are 
here. If you put wind out in the--if you put wind out in the 
West, you're going to have to have an infrastructure grid that 
sort of looks like this. These are pipelines and facilities 
that can transport--generate and transport the energy.
    I want to show you what this supports. This infrastructure 
supports this distribution system in the country. This is the 
gas distribution system for the Nation, and it basically comes 
out of Louisiana. So, that infrastructure that I just showed 
you supports the distribution of gas that comes all around. The 
only other trunk even close to the trunk that we have is, you 
can see, from Canada, is a large amount of gas coming from 
Canada. The other part of it comes from here.
    So, I just want to conclude, not by a question, but just 
saying, Mr. Chairman, when Dr. Burkett, who's studied this her 
whole life, says that between Mobile and Galveston we're 
predicting a 2- to 4-foot sea rise, basically because of 
subsidence of our land and, of course, the rising temperature 
of the water, that this is a--truly an emergency right now, and 
that is why Senator Sessions and others of us are trying to 
lead this effort on America's energy coast to explain that it's 
not just for the people of Alabama, Mississippi, and Louisiana 
that this is a problem for, it's a problem for the whole 
country.
    So, in conclusion, spending a little bit of money to build 
levees, to raise these highways, to do smart siting of these 
facilities is going to save us billions of dollars in the long 
run, and we believe that we're generating the funding right now 
to do that, which is what revenue-sharing and coastal impact 
assistance was all about.
    In my final minute, I'd just like Ted to add a word or two.
    Mr. Falgout. I guess a logical question would be, Why not 
move Port Fourchon further inland, where the refineries are, 
and not have to protect the coast? That is not what Port 
Fourchon does. Port Fourchon is the intermodal hub where 
everything changes modes of transportation, and that has to be 
on the Gulf of Mexico for the most efficient transportation 
system that's out there.
    If you move Port Fourchon inland 30 or 40 miles, that means 
270 large vessels a day that go to this port, bringing these 
widgets and gadgets back, have to do this 30- or 40-mile 
stretch further inland, burning more fossil fuels, causing more 
erosion, doing huge environmental impact. We have to sustain a 
place on the Gulf of Mexico to do this transfer, and this is 
your best option.
    The Chairman. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    Ms. Burkett, you used the figure ``2- to 4-feet sea rise,'' 
and some of that is land subsidence. How much do you estimate 
to be actual sea rise and how much is the sinking on this land?
    Ms. Burkett. The percentage, of course, varies. In 
Louisiana, the percentage of--that is due to the land sinking 
is greater than it is in Alabama. In my testimony, we have a 
table that actually breaks out the amount that is due to sea-
level rise versus subsidence. In the Alabama Mississippi Sound 
area, the subsidence--Mississippi Alabama Sound is .34 
millimeters per year. So, the sea-level rise there is much 
greater, 2.14. So, most of the change in the Alabama coast is 
due to the sea-level-rise factor, as opposed to the sinking. 
It's just the opposite in Louisiana and Galveston.
    Senator Sessions. Mr.--it's Drevna, I believe; is that 
right?
    Mr. Drevna. Yes, sir.
    Senator Sessions. Yes. You know, I think a lot of work was 
done to get those refineries back on after Hurricane Katrina 
delivered that direct hit on, I guess, our energy coast, but it 
didn't seem like it was very fast to me and the people in our 
area whose prices were up and whose shortages existed. Post-
Katrina, has the oil and gas industry, including pipelines and 
refineries--have they learned lessons that could allow their 
facilities to be hardened? Are there redundant supplies of pipe 
or other equipment that could be utilized to promptly bring 
this back online? Finally, what economic interest is there for 
the oil and gas industry to spend considerable sums of money in 
merely trying to bring the system back up online quickly?
    Mr. Drevna. Senator, I understand the frustration, back in 
the summer of--late--early fall of 2005, but if you look at 
it--if you look at it from the total devastation that your area 
of the country experienced, but, in relative terms, I think 
the--again, the oil and gas and refining industry--
petrochemical and the electric utility industry--we all--we 
were all together for those 2 or 3 weeks, working very 
diligently on getting those facilities back up online. If you 
look at--if you look at it from the total impact to when we got 
everything back online, it--I would just, sort of, disagree 
with you, Senator, it was a relatively short period of time. 
Yes, it was a----
    Senator Sessions. How----
    Mr. Drevna [continuing]. Frustrating----
    Senator Sessions. How long?
    Mr. Drevna. We were back up within 3 to 4 weeks, in most 
cases. Now, there were--I know that the one--the one refinery 
in your State that was--the Pascagoula refinery, that facility 
was under 5, 6 feet of water for a long time, so that took a 
heck of a lot longer to get back online.
    Senator Sessions. I agree that Hurricane Katrina, which 
almost couldn't have been a more perfect storm----
    Mr. Drevna. Right.
    Senator Sessions [continuing]. To hit the energy sector--it 
wasn't the biggest and strongest; it was a category 3, as I 
recall, and Camille was category 5--but the very nature of the 
configuration of that storm----
    Mr. Drevna. Right.
    Senator Sessions [continuing]. The way it moved slowly and 
pushed so much water, was very----
    Mr. Drevna. Right.
    Senator Sessions [continuing]. Aberrational and 
devastating. But, I guess my inquiry would be, What are you 
going to do about that? Are you--do we need better berms? Can 
we put better dikes up around the refineries? Can we take other 
steps to--and utilizing the lesson of Katrina to more quickly 
recover?
    Mr. Drevna. Senator, we--as I mentioned in my oral remarks 
and as in my--in the written testimony, we do have a May 2006 
publication, ``Hurricane Security Operations,'' and it 
identifies six critical elements that should be provided in any 
emergency response plan. It's an emergency management team, 
it's facility security, logistics, communications, personnel, 
government and community relations. It's all these things that 
have to be taken into account and worked together.
    I think it's--you should also--we should also understand 
that refineries and petrochemical facilities, especially along 
the Gulf--we've been dealing with hurricanes for decades, but 
you said ``the perfect storm,'' and that--and, unfortunately, 
that's what Katrina, and then, 2 weeks, followed up by Rita, 
was--were.
    But, I would like to go back and comment, if I may, on 
Senator Landrieu's point. You know, we have a--we have a group 
called the Homeland Security Department, and we're diligently 
working in establishing regulations to protect our refineries 
and the petrochemical facilities and other critical 
infrastructure against terrorism, but I think, as Senator 
Landrieu points out so clearly and so poignantly, it doesn't 
make a difference, if we don't protect it from Mother Nature. 
You know, as critical as that area of the country is in 
providing the whole--the whole country with energy, with those 
BTUs that keep our economy going, to cavalierly say, ``Well, 
we're going to have an Energy Independence and Security Act of 
2007 that doesn't address anything like that''----
    Senator Sessions  Well----
    Mr. Drevna. Now----
    Senator Sessions [continuing]. My time's up, but I just 
would follow up on that. That's exactly the point I was 
raising. Some of this may need to be funded by taxpayers, some 
of it needs to be funded by the industry. We--the industry 
funds its protection against terrorism attacks, fundamentally, 
and----
    Mr. Drevna. That----
    Senator Sessions [continuing]. So, maybe we need to be 
asking what kind of standards we need for our critical oil and 
gas facilities and electric generating facilities in the light 
of storms. I don't know--the data I have shows that in--since 
1900, we haven't seen, based on the mean data, an increase in 
hurricanes, but there's enough of 'em--too many, far as I'm 
concerned--and they're will always be, I assume, hurricanes in 
the future. Whether it's global warming or not, we've got 
threats from hurricanes, and hopefully we can do better.
    Madam Chairman, thank you--
    Senator Landrieu [presiding]. Yes. Thank you.
    Senator Sessions [continuing]. For your interest in this 
subject. Your knowledge of it is valuable to us in this 
discussion.
    Senator Landrieu. Thank you.
    Senator Salazar.
    Senator Salazar. Thank you very much, to Chairman Bingaman, 
for this hearing, and to you, Senator Landrieu, for your 
leadership on so many issues in the Gulf Coast and on energy.
    Let me ask a question to you, Dr. Burkett. You know, I hear 
you giving us the ominous statistic, which is 2 feet to 4 feet, 
in terms of the change of the sea level caused by subsidence 
and also the sea rise. When you look back at the statistic that 
Senator Landrieu spoke about, which is, over the last 50 years 
you've seen, I think she said, Louisiana losing 34 square miles 
a year--34 square miles a year--when you look back at those 50 
years, and you look at both of these factors--sea rise, as well 
as subsidence--how does that compare to looking ahead at the 
next 50 years?
    Ms. Burkett. The past 100 years, about a fifth of the 
change in elevation was due to sea-level rise. But, you know, 
sea level is supposed to accelerate--they call it ``latent sea-
level rise'' in the IPCC report--because it takes the ocean a 
long time to absorb the thermal energy, the heat energy from 
the atmosphere, and for the glaciers to retreat. So, the rate 
of sea-level rise is expected to accelerate, this century. We 
haven't seen an acceleration yet, even though, during the past 
15 years, the rate of sea-level rise is double what it was over 
last century. But, we don't have a long enough record yet to 
attribute that to human activity. It might just be natural 
variability, hopefully. But, we may already be seeing that 
initiation of the acceleration that would change it from being 
one-fifth of the cause to being one-half or more of the cause, 
and largely dependent on----
    Senator Salazar. How----
    Ms. Burkett [continuing]. Ice sheets.
    Senator Salazar. Dr. Burkett, how confident are you and 
your scientific peers of this 2-foot to 4-foot rise by the year 
2050? Is it a consensus within the scientific community that 
this is going to happen?
    Ms. Burkett. We use IPCC models, that were used for the 
fourth assessment report, to--as input into the sea-level rise, 
so the sea-level rise, coupled with the actual records that we 
have of the sinking of the land----
    Senator Salazar. Okay.
    Ms. Burkett [continuing]. Using tide gauges, the IPCC says 
they're--you know, they have a high degree of confidence 
associated with----
    Senator Salazar. Do you----
    Ms. Burkett [continuing]. Their numbers.
    Senator Salazar. Do you have a high degree of confidence? 
Is it going----
    Ms. Burkett. Yes.
    Senator Salazar [continuing]. To happen?
    Ms. Burkett. We use their numbers.
    Senator Salazar. So, you believe that it is going to 
happen, that we're going to have this 2- to 4-foot rise----
    Ms. Burkett. I'd say it----
    Senator Salazar [continuing]. By 2050.
    Ms. Burkett. Yes, sir, it's likely, but by 2100. That's----
    Senator Salazar. Okay. So, that--then, you would probably 
conclude, and most people would be a part of your effort, that, 
then, we should be doing something about this, whether it's 
hardening the infrastructure, taking other kinds of actions to 
deal with this issue. It's a reality. It's coming.
    Ms. Burkett. Yes.
    Senator Salazar. We should be dealing with it.
    Let me ask Dr. Wallace a question. You may pipe into this 
one, Dr. Burkett, as well. This is not about the coast, but it 
is related to climate change. You know, for us, in the West, 
water is the lifeblood of our communities, as we often say. For 
me, in Colorado, I have great concerns about what happens with 
the Colorado River and what happens with the ski industry and 
our agriculture that depends on irrigation from those rivers. 
Do you have some thoughts, from the Los Alamos perspective, or, 
Dr. Burkett, you, as the head of geo-survey, climate-change 
experts, on what's going to happen with respect to global 
warming and the flow of waters into the Colorado River Basin?
    Mr. Wallace. It's a good question, because I think the--our 
understanding of global warming, there is a consensus about 
the--a global rise. But, as Dr. Wilbanks referred to before, 
you have variability within that, and the grand challenge that 
stands before us from energy and climate today is to scale that 
to a regional level. So, we can do a pretty darn good job of 
understanding what's going to happen in a global sense, but how 
it--there's winners and losers in climate change, and our 
climate in New Mexico and Colorado is largely controlled by 
what happens with what's called the ENSO or the El Nino/La Nina 
effects. There isn't consensus, to be perfectly honest, with 
the rise in global temperature, exactly how that will affect La 
Nina or El Nino. Some models today are suggesting that you will 
actually get increased rainfall in the Southwest, and 
presumably, increased snowfall in the Rockies. Other models 
show that you will have a drought, which may rival the Great 
Drought of between 1000 and 1200 A.D. in the West, and which 
changed civilization there. We just don't know yet. We need to 
do a lot more modeling, and we realize this is very complicated 
system.
    The fact of the matter is, there'll be a significant 
change, but the grand challenge is for us to be able to develop 
the science and the models to take this to small regional 
scale.
    Senator Salazar. Dr. Burkett, if you could answer that 
question, too, in terms of the regionalization of understanding 
the issue----
    Ms. Burkett. Yes.
    Senator Salazar [continuing]. Of global warming, down to 
that kind of basic----
    Ms. Burkett. Right.
    Senator Salazar [continuing]. Level----
    Ms. Burkett. In general, we expect to see less snow at low 
altitudes. In addition, we--because of the temperature of 
these--the expansion of the spring, warming earlier in the 
year, the timing of runoff to reservoirs will change. If you 
couple the declining snowfall at low altitudes with the 
increasing temperature, the propensity for drought in your 
region is highlighted.
    I am an author of a IPCC special report on water that will 
come out. It was just approved by the governments, the U.N. 
member governments. I'm going to send you a copy of that. We 
focus on your region. Also, I want to send you a copy of some 
output that we're working on now for a report that'll come out 
from the Climate Change Science Program very shortly, that 
looks at your region, and I think it'll answer your--a lot of 
your questions.
    But, the regional modeling is where a lot of activity needs 
to be focused so we can get real definite answers----
    Senator Salazar. I look forward----
    Ms. Burkett [continuing]. To you.
    Senator Salazar [continuing]. To receiving and reviewing 
those reports, Dr. Burkett, and thank you for your good work.
    Senator Landrieu. Thank you, Senator.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman. I want to 
thank you. Thank you for your leadership on energy issues. I 
think you have--you have proven yourself as you talk about the 
Gulf States, you talk about the development and, just, the 
production that comes out of your region, and, in terms of an 
individual that is constantly reminding us all about the energy 
breadbasket down in the Gulf and how the State of Louisiana, in 
particular, has for years been supplying this Nation, and, in 
many cases, not asking for much in return, maybe a little 
respect, maybe a little funding coming down.
    But, the trip that we were able to take when you took me 
down there to Port Fourchon, we had an opportunity to meet with 
you, Mr. Falgout, to understand and see firsthand what goes 
on--it's one thing to look at those charts and see the little 
spider web of infrastructure there, it's another thing to be 
flying over, for a long period of time, and looking down--
reminds me of Alaska; it's really wet, and----
    Senator Landrieu. Big.
    Senator Murkowski [continuing]. It's huge. So, I 
appreciate, again, your leadership on this, and an opportunity 
to talk about what happens to this very, very critical 
infrastructure.
    Now, Alaska wasn't part of this discussion. Our issues are 
a little bit different up there. But, when we take into account 
how, really, we have so much of our energy infrastructure 
concentrated in one area, down there in the Gulf, there's a 
level of vulnerability. When we're talking about whether--how 
we protect it from Mother Nature, it is a very dicey issue. 
We're looking at erosion issues, where we've got communities up 
north that are literally falling into the Arctic Ocean, into 
the Bering Sea, and we see how much it's going to cost to move 
a small village. To move the infrastructure that is literally 
powering this country will be phenomenally expensive.
    So, I guess the question that I throw out to you--it's one 
thing to provide for protection of existing infrastructure--is 
there anything out there, in terms of innovative technologies, 
that you're looking at within the industry that could provide 
for greater protection?
    The example that I'll use up north, when we knew we had to 
deal with permafrost, we just didn't lay a pipe on the tundra, 
we had to elevate it, because you couldn't have the warm pipe 
on the frozen permafrost; you had the ability to move it, or 
have it be flexible in the event of earthquakes; so, you build 
in that type of technology. Directional drilling has allowed us 
to do remarkable things up north without disturbing the 
surface.
    Is there anything that you see, in terms of technology 
within the industry, that can provide for greater security, 
greater protection? That's just kind of a general question to 
you all.
    Mr. Falgout and Mr. Drevna.
    Mr. Falgout. We have a lot of tools in our chest for 
coastal restoration. Certainly, we have one of the greatest 
resources sitting there, the Mississippi River, for sediment. 
But, you have to transport that sediment. It's unrealistic to 
cut the levees and let everything flood again and try to 
rebuild the delta. That'll take 1,000 years anyway. So, long-
distance distribution of sediment through pipelines and through 
dredging operations in the Mississippi River, taking that 
sediment and placing it through the estuary, trying to rebuild 
the skeleton, at least, of the system to where then, over the 
longer term, you can start to build onto the skeleton, built 
meat, so to say, in the estuaries, and bring--to build the 
friction, to break the storms, to do the things necessary--all 
of that costs billions of dollars to do. But, certainly when we 
look at the resources that are out there, what is--you know, 
what is coming through Coastal Louisiana, I think it just makes 
sense to approach it in that manner. Then, certainly Senator 
Landrieu has, you know, overwhelming experience in seeing some 
of these things. We are starting with the offshore revenue-
sharing money, the State has committed 100 percent of it, 
through a constitutional amendment, to be used for coastal 
restoration and infrastructure protection. So, we're getting 
there, but, you know, some of our--we say, you know, we're at 
ground zero--and what we say, we're at zero ground, actually--
down at Port Fourchon.
    [Laughter.]
    Mr. Falgout. You know, some of this is immediate need. If--
unless we develop a mechanism to mitigate some of these 
immediate energy issues, we may not just be able to sustain the 
ability to do what we do.
    Senator Murkowski. Mr. Drevna.
    Mr. Drevna. Senator Murkowski, just to go back to the 
comment I made before, about Senator Landrieu's charts, 
absolutely we had the technology to prevent--or, to minimize 
the damage and--in the critical infrastructure--and, you know--
and, of course, we should, naturally, protect what we have and 
what's there and now, but we also have the technology to be 
able to expand our horizons, so to speak, and not put all our 
eggs in one energy basket, as we've done in this country for 
the past 35 years.
    You know, if you only go back, again, a couple of summers 
ago, in reference--Katrina and Rita--you know, huge offshore 
platforms were actually toppled over, not one iota of 
environmental damage. We've learned a lot over the past 25, 30, 
35 years. We can effectively and with a very, very, very 
limited or no environmental footprint, bring resources from the 
East Coast, the eastern Gulf, the West Coast, and your fair 
State of Alaska. For some reason, we decide we'd rather tell 
foreign countries to send more to us, but then tell 'them not 
to send more to us, and keep our own resources locked up. So, I 
think what we need is an energy basket that is for everyone, 
that is for all resources, whether it's coal, nuke, oil and 
gas, biofuels done in the right way, not trying to create 
winners and losers or create a false market, but, yes, the long 
answer to your question, we have the technology available to 
provide the American citizens with the BTUs they need.
    Senator Murkowski. Thank you.
    Thank you, Madam Chair.
    Senator Landrieu. Thank you.
    We're going to have a vote called in a few minutes, but I 
do have a couple of more questions. If the members--Senator 
Sessions has another question.
    But, before I do, a statement. I had the staff calculate 
that if Katrina and Rita happened again just like it did 3 
years ago--it'll be the 3-year mark in August 29 for Katrina, 
and September 24 for Rita--based on the current price of 
gasoline today, as it was relative 3 years ago, gas would go to 
$6.10 a gallon.
    Now, we don't know if Katrina is going to hit again, but it 
could. Hurricane season starts in June. Based on what happened 
to the price of gas the last time it hit, not factoring in 
anything else, gas will go to $6.10.
    Now, we can't prevent that storm, but we could be taking 
steps, as following up with what Mr. Drevna said, as to have 
alternatives. If the Gulf had to shut down, you could open the 
East Coast or the West Coast, or you could bring in more from 
Canada, or you could do something. But, right now we're 
basically sitting ducks, because there is no other place to go 
to get the capacity. We don't have redundancy in the system. 
I'm going to say it over and over again. We're happy to 
continue to do what we can do in the Gulf. We can harden our 
assets. We want to bring in more energy. We have the capacity 
to do it. But, that is, in itself, not even enough. We need 
redundancy.
    The example that is most clear, and it's easy for the Gulf 
to understand--we have two major shipyards in the Gulf where 
we're building ships: Avondale, in New Orleans, and Gulfport, 
in Mississippi. Gulfport was completely destroyed. We 
completely stopped shipbuilding in Gulfport. But, luckily, 
Avondale was still standing, and so, you could move your 
shipbuilding capacity to Avondale until you could get Gulfport 
back up online.
    We don't have that redundancy in the energy--so, if the 
Gulf shuts down, I can just tell the country, ``We told you 
so.''
    The only final thing I'll say about it is, had Rita hit 
Houston the way Katrina hit South Louisiana, I don't know, Mr. 
Drevna, what would--what would you say? You're closer to it 
than anybody else at this panel. What would--what are some of 
the things that you all talked about, had Rita hit Houston 
and----
    Mr. Drevna. Senator----
    Senator Landrieu [continuing]. Shut down the Houston ship 
channel?
    Mr. Drevna [continuing]. We were literally scared to death 
about the path of Rita. I mean, not that Rita was--not that 
some facilities, unfortunately, did not dodge that bullet, but 
the--if it would have hit as projected earlier on, you would 
have had--you would have had, you know, Katrina-squared, as far 
as impact. I don't know--honest to goodness, I don't know what 
the country would have done. I mean, we--I mean, there's only 
so much more you can bring in from imports. I don't--you know, 
it was--it would have been--it would have been a real national 
disaster.
    Senator Landrieu. Okay. So, let's just factor that into the 
hearing, not that we can prevent hurricanes, but we could build 
redundancy into this system, we could be doing some things to 
protect the assets, and we could be using the revenues that are 
coming into this country more wisely; i.e.--Senator Sessions, 
I'll get to you in a minute--but, the revenues generated from 
the industry, just in the Gulf, are about $10 billion a year. 
Ten billion just in taxes paid by the current industry. None of 
that money right now is going to protect this infrastructure. 
It's all basically going into the general fund to be spent on 
general operational expenses of this Nation. If some of it was 
returning, which was what we accomplished in revenue-sharing, 
but it's perspective, we could be building some of these 
levees, you know, hardening some of these assets, and 
protecting ourselves from the shock that will occur if another 
monster storm hits the Gulf.
    Senator Sessions, you had another question, then I think 
we'll call it a wrap.
    Senator Sessions. Thank you.
    When you say ``in revenue,'' you don't mean jobs and 
salaries and--but, you mean just the tax revenue--Government--
--
    Senator Landrieu. Just the tax----
    Senator Sessions [continuing]. To the Government of the 
United States from this production.
    Senator Landrieu. Just one form of tax revenue. It's the 
severance and royalties. I'm not even counting the income taxes 
that people are paying, or the corporate taxes that----
    Senator Sessions. Those that are----
    Senator Landrieu [continuing]. Are going to----
    Senator Sessions [continuing]. Making good salaries.
    Senator Landrieu. That's in addition. So, it's $10 billion 
just from revenue--from severance and royalties, basically.
    Senator Sessions. I couldn't agree more. I'm convinced.
    Mr. Drevna, I agree with you, that--what is it that makes 
us say it's perfectly all right to pay for oil produced off the 
coast of Nigeria or in the Persian Gulf or in the Caspian Sea 
or in the North Sea, but we won't allow any of it to be 
produced off our shore? If we really care about the 
environment--and T. Boone Pickens, I saw an article where he 
said, ``Our purchase of oil abroad''--he estimated $600 billion 
a year, maybe, next year; other estimates are about $500 
billion--represent the greatest wealth transfer in the history 
of the world. If anybody thinks that's not affecting our 
economy, if anybody thinks that's not driving up the average 
person's gas price, they're from another planet.
    That's what people are talking to me about. They're talking 
about gas prices. They're not telling me they want a cap-and-
trade bill that's going to drive up the cost of gas, according 
to EPA, $1.50 a gallon, and according to the National 
Association of Manufacturers, about $5 a gallon, depending on 
how you estimate it. But, I'm just saying, these are really 
important issues. This infrastructure in the Gulf is critical 
to our Nation, and we did open up, 2 years ago--under Senator 
Landrieu and Senator Domenici's leadership, we were able to 
open up some more potential production in the Gulf, but large 
parts of it are closed.
    I'm--Dr. Burkett, you--I'm trying to get this straight, 
because if we're talking about--2 to 4 feet in change in water 
makes me nervous, and just by 2050. But, I think the numbers 
you gave me, in my homemade mathematics here, show that we're 
talking about two-point---is it millimeter--2.4--2.14 
millimeter rise--yes, millimeters per year.
    Ms. Burkett. Right.
    Senator Sessions. You add the subsidence in my area, of 
.34, which is less than 2.5--I multiply that out to say, by 
2050, considering both of those factors, we're talking about 
less--around an inch a year, in common--an inch by 2050. Would 
you disagree with that number?
    Ms. Burkett. Putting together the--that's the historical 
trend. The 2.14 there is the historical trend. That's the 
sinking of the tide gauge, basically, relative--well, that's--
that is the actual tide-gauge record there. Basically, we have 
three long-term tide-gauge records, and you can see them----
    Senator Sessions. So, you would expect it to increase.
    Ms. Burkett. Yes, sir. We expect it to accelerate.
    Senator Sessions. How much do you--how much, just from the 
sea rise, not subsidence? Hopefully, the subsidence won't 
increase--
    Ms. Burkett. No, sir. We----
    Senator Sessions [continuing]. But it could, I suppose.
    Ms. Burkett [continuing]. Expect that to be steady, the 
rate of subsidence to just continue. But then, looking--and you 
can look at the----
    Senator Sessions. What would you estimate, then, using----
    Ms. Burkett. On the low end, on your part of the coast, off 
of--off the Alabama coast--now, Mobile--you know, Mobile has a 
higher rate of subsidence than does this general average for 
the area. So, depending even on the--in the Alabama coast where 
you are, the rate of relative sea-level rise will be greater. 
In the Upper Mobile Bay area, for example, the land is sinking, 
so it would be higher there. So, it depends upon where you are.
    Senator Sessions. Why is that happening?
    Ms. Burkett. Due to human activity.
    Senator Sessions. We're not producing any significant oil 
and gas in the upper part of the bay----
    Ms. Burkett. No, sir, but----
    Senator Sessions [continuing]. To my knowledge.
    Ms. Burkett [continuing]. There are groundwater 
withdrawals. I'd have to look exactly what the----
    Senator Sessions. Okay.
    Ms. Burkett [continuing]. Causes are, but there are other 
factors that are--you have a slightly higher rate in the 
Northern Mobile Bay----
    Senator Sessions. Anyway, do you know what the Gulf Coast--
regarding subsidence, the actual sea-level rise is projected to 
be?
    Ms. Burkett. The sea-level rise alone there, you're looking 
at, basically, the global average, 0.6 meters--0.6 meters, and 
a meter is 3 feet--over a 100-year period.
    Senator Sessions. Okay. So, 0.6 meters, and that's about 18 
inches, right? That's over 100 years, not by 2050. So, you're 
saying 100 years, which would be 2106, is 18 inches from the 
sea increase, and by 2050 you would agree that it would 
probably be much less than that.
    Ms. Burkett. Right. The actual----
    Senator Sessions. I just want to be sure----
    Ms. Burkett [continuing]. Estimates----
    Senator Sessions [continuing]. I'm not having everybody 
selling their beachfront property and----
    Ms. Burkett. No, sir.
    Senator Sessions [continuing]. Moving to Ohio or 
something--
    [Laughter.]
    Senator Sessions [continuing]. Because I'm not sure it's 
that dramatic. I hope it's not.
    Ms. Burkett. The low end was 1 foot, the high end was 6 
foot. For the purposes of this study, we selected 2 to 4 feet 
as being the range at which we would assess the impacts on 
transportation infrastructure. So, the low end--you're right in 
your calculations--would be about 1 foot, and the high end 
would be as high as 6 feet. Those are conservative, though, 
because----
    Senator Sessions. Now you're going conservative. You're 
going to high and low and--but, Okay.
    Ms. Burkett. Because they don't assume any changes in ice-
sheet dynamics.
    Senator Sessions. All right. I understand, and I'm with 
you. thank you, Madam Chairman.
    Senator Landrieu. We're going to wrap up with this. It--I 
wanted to ask one final question, Ms. Edgar. This--watching the 
destruction of Katrina and Rita on the electricity grid--you 
talked about that in your testimony--it occurred to me that we, 
after every storm season, put those poles back up, try to cut 
the trees a little more, and every season they go down again 
and everybody's electricity goes off. Is there any better way 
to do that? Is--are burying these lines possible, both from a 
cost-effective manner and--what do other countries do with 
their electricity grid distribution that are either in high-
wind areas or high-storm areas?
    Ms. Edgar. Senator, thank you for the question. One of the 
things that we have tried to do is look at the different 
geographical variations across our State. Certainly 
undergrounding in some areas does make sense. It is, as we 
realize, often more expensive, but trying to look at those 
long-term community benefits and trying to assess where those 
costs and benefits will be is one of the things that our State 
has been looking at. We have made some regulatory changes to 
try to make undergrounding more cost- effective, where, indeed, 
it does look like it would have long-term benefits.
    Senator Landrieu. Okay.
    Is there anything anyone wants to add, on the panel, that 
you don't feel----
    Mr. Drevna.
    Mr. Drevna. Senator, if you don't mind, I'd just like to 
respond to your--again, to your earlier comment about, you 
know, the infrastructure, where we should get the money from.
    I think it's--you know, I mean, with some trepidation, I 
bring this up, but, what the heck--you know, there's been a lot 
about oil industry profits these days, and if--I don't think 
the American public knows, and maybe a lot of us in this room 
don't know, that one company who has made $40 billion last 
year, their taxes were $60 billion. So, they paid more in taxes 
than profits. They still employed high-paying jobs that had 
ripple effects on all towns across the country, as did the 
whole industry. So, I think there's a story to be told there, 
that, you know, there--are the resources available out there to 
fix the problem? Absolutely. It's just the direction of where 
those resources go. I applaud you, and I urge you to continue 
to fight to get those resources where they belong.
    Senator Landrieu. Okay. Thank you very much.
    I want to thank the staff for putting a good hearing 
together, and thank all of our panelists.
    The meeting is adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of Charles T. Drevna to Questions From Senator Bingaman
    Question 1. In light of all the changes that petroleum refiners 
have had to implement to prepare for hazardous weather, such as the 
hurricanes that occur in the Gulf Coast area, do you feel that the 
infrastructure is sufficiently `reinforced' against future extreme 
weather and other possible impacts brought on by climate change?
    Answer. U.S. petroleum refiners have made several significant 
changes in how they prepare for and react to hazardous weather.  Almost 
every refinery in the Gulf Coast has performed process analyses of the 
time it takes the facility to enact a full shutdown procedure, which 
tells them how long it takes to drain the tanks of inventory (to 
prevent leakage) or fill them with water (to ensure buoyancy and 
minimize damage to the tanks and surrounding equipment.) During 
hurricane season, the facilities monitor the projected path of the 
storm, the ``storm arc'' and react accordingly. Because projected storm 
paths narrow as the storm moves closer to shore, facilities have 
different levels of reaction depending on how far the storm is out to 
sea. The process is based on the idea of a trip wire--if it takes a 
plant 36 hours to empty its tanks of inventory and fill them with 
water, and if the plant is in the storm arc 36.5 hours out, shutdown 
procedures are enacted.
    There are additional ways to assist refiners in preparing for 
extreme weather events that may occur in the future. Congress could 
signal that investments in energy infrastructure are a national 
priority with tax incentives. The National Petroleum Council--an 
advisory group to the U.S. Department of Energy--recently reported that 
oil and gas will be critical to meeting the global energy needs over 
the next quarter century. Congress should resist efforts to single out 
the oil and gas industry with repeal of the Section 199 manufacturing 
deduction in the IRS Code (by excluding gross receipts of the taxpayer 
derived from the sale, exchange, or other disposition of oil, natural 
gas, or any primary product thereof from the term ``domestic production 
gross receipts'') or increase the amortization schedule for geological 
and geophysical expenditures for major integrated oil companies from 
five to seven years because this would send a message that these 
industries are not national priorities and would provide a disincentive 
for domestic investment.
    Question 2. Are the other components of the refining infrastructure 
hardened against sea-level changes, subsidence in the gulf, and 
shoreline erosion? If not, what else needs to be done to ensure the 
safety and security of the infrastructure?
    Answer. Refiners have made many investments in protecting 
themselves against the hazards of the Gulf Coast. However, the best way 
to protect America's energy infrastructure is to permit and encourage 
the geographical diversification of its energy supply. Refineries and 
other important onshore facilities have been welcome in limited areas 
throughout the country and policymakers have restricted access to much-
needed offshore oil and natural gas supplies in the eastern Gulf and 
off the shores of California and the East Coast. Congress should permit 
oil production in ANWR. By diversifying our energy supply, we ensure 
steady access to our own natural resources, and also reduce our 
dependence on foreign imports.
    Additionally, tax incentives would promote investments in refining 
infrastructure both in the Gulf and in more geographically diverse 
locations. For example, section 1323 of EPAct05 provided a tax benefit 
such that a refinery can expense 50% of the cost of a refinery 
expansion. Congress could apply this tax provision to investments in 
refining infrastructure.
    Question 3. You mention in your testimony that 3 major pipelines 
were shut down in the aftermath of Hurricane Katrina due to disruption 
of electricity supplies. What mechanisms have been put in place to 
mitigate such circumstances in the future?
    Answer: Since NPRA does not represent the oil pipeline industry, 
this question could be directed to the Association of Oil Pipe Lines.
    Question 4. You state in your testimony that after Hurricanes 
Katrina and Rita that the restart process for several refineries was 
particularly challenging due to flooding of electric pumps. What 
measures have been put into place to mitigate these circumstances in 
the future?
    Answer. NPRA is not aware of any technology that would mitigate 
this problem.
    Response of Charles T. Drevna to Question From Senator Domenici
    Question 1. As we seek to address the coastal energy infrastructure 
impacts associated with climate change, should greater emphasis be 
placed on strengthening and expanding energy infrastructure in the 
areas where it is already located, or on diversification of the areas 
within the United States where energy is produced, refined or otherwise 
processed?
    Answer. Each of these goals are of vital importance, and Congress 
must work to advance both of them. Congress should encourage an 
expansion of energy infrastructure through tax incentives and policies 
that support investment. Congress should enhance our energy security by 
expanding domestic energy production and permit oil production in ANWR 
and remove restrictions on offshore oil and gas supplies in the eastern 
Gulf of Mexico and off the shores of California and the East Coast.
                                 ______
                                 
    Responses of Lisa Polak Edgar to Questions From Senator Bingaman
    Question 1. It seems that the rest of the coastal areas in the US 
could learn from the efforts that you have undertaken in Florida to 
harden the energy infrastructure against extreme weather conditions. 
How much did these readiness and hardening efforts cost Florida in 
terms of time and financing? In other words, how much of these program 
developments and infrastructure hardening efforts were transferred to 
Floridian energy consumers in the form of increased electricity costs?
    Answer. Storm readiness and hardening measures are an ongoing 
process, with some activities requiring several years to complete. It 
is important to carefully examine and balance the need for a robust 
transmission and distribution system with the need to moderate rate 
impacts to consumers.
    Initial storm hardening efforts such as pole inspections will be 
completed by utilities within 8 years and inspections will continue on 
an 8 year cycle. Electric utilities are performing vegetation 
management in cycles of 3 years for major feeders and up to 6 years for 
laterals. Florida's largest electric utility, Florida Power & Light, 
estimated costs of between $48.5 million and $61.5 million to implement 
storm hardening in 2007. Projected costs for 2008 and 2009 are between 
$75 million to $125 million and $100 million to $150 million, 
respectively. These costs are for projects to harden infrastructure 
serving critical customers, crossing major thoroughfares, major planned 
expansions, rebuilding and/or relocating facilities, and constructing 
new distribution facilities. The Commission will review the actual 
expenditures resulting from implementation of storm hardening plans 
when an investor-owned electric utility makes a formal request for cost 
recovery thorough a pass-through mechanism or through a request for 
base rate increase. To date, only one utility has requested cost 
recovery. A small investor-owned utility, Florida Public Utilities 
Company, requested an adjustment to base rates. The Commission approved 
an increase of $19,615 for costs associated with storm hardening 
activities.
    Measures considered to reduce potential storm damage and outages 
should include cost/benefit data and analysis. Consumers deserve good 
financial value, short-term and long-term.
    Question 2. By taking these preventative measures, how much do you 
estimate that you are saving the government and consumers by preventing 
dramatic property damage and energy losses due to extreme weather?
    Answer. Estimated benefits of storm-hardening to electric consumers 
include reduced damage to electrical infrastructure, shorter 
restoration time, and reduced restoration costs. In addition, there are 
public benefits which accrue due to reduced disruption to Florida's 
overall economy. Local businesses and schools need electricity to 
function; the sooner they can operate after a major disruption, the 
better for families, communities and state and local economies. 
However, the exact dollar value of total benefits is difficult to 
estimate as there is limited historical data available to conduct 
conventional cost/benefit analyses on many of the new preventative 
measures.
    In order to estimate ratepayer benefits, investor-owned utilities 
such as Florida Power & Light relied on their experience with the 2004-
2005 hurricane season, forensic analysis of damage to facilities, and 
an independent analysis by a consulting firm to produce an estimate. 
Assuming a hurricane frequency of once every 3-5 years, FPL estimates a 
storm restoration cost savings, on a net present worth basis, of 
approximately 70% to 45%, respectively, of the hardening costs over a 
30 year period. Quantifying the total savings to the government and 
consumers for preventing property damage and energy losses is difficult 
because such analysis is, by nature, somewhat subjective and dependent 
upon how and what data is considered. To aid further analysis, the 
Commission directed each investor-owned utility to include the methods 
it would use to collect detailed outage data in its storm-hardening 
plan. Improving these methods will allow more meaningful analysis and 
more accurate measurement as we move forward.
    As stated in the order approving the plans of Florida Power & Light 
and other investor-owned utilities, the measures directed meet the 
requirements of enhancing reliability and reducing restoration costs 
and outage times in a prudent, practical, and cost-effective manner.
    Question 3. Have you worked with any other partners in other states 
to help them prepare for extreme weather--whether through preparedness 
measures or through infrastructure hardening, particularly in the area 
of electricity transmission to areas outside of Florida?
    Answer. During the Commission's work with the Florida Emergency 
Operations Center, information related to storm preparedness and 
recovery has been shared with Alabama, Mississippi, and Tennessee. The 
Commission has also shared our experiences with other states through 
our participation with the National Association of Regulatory Utility 
Commissioners. The Commission has provided information and material to 
other states in response to numerous telephone inquiries. All documents 
and activities associated with the Commission's storm hardening efforts 
are available on our website at http://www.psc.state.fl.us/utilities/
electricgas/eiproject/.
    Question 4. How will rising sea-level impact Florida's energy 
transmission? It is clear that Florida has made an enormous effort in 
preparing for hazardous weather--but have you done the same for 
anticipating and preparing for changes in sea level?
    Answer. The Florida Public Service Commission has not addressed the 
impact of changes in sea level on energy transmission. Evaluations 
after the 2004-2005 storm season revealed that damage to transmission 
was minimal compared to the damage sustained by coastal distribution 
lines. The damage to transmission was due more to high winds and 
localized tornadoes than from surges and flooding.
    In Executive Order 07-128, Governor Crist established the 
Governor's Action Team on Energy and Climate Change. This team will 
develop an Action Plan to achieve targets for statewide greenhouse gas 
reduction, including policy recommendations and changes to existing 
law. As part of this effort, six Technical Working Groups have been 
established, one of which is looking at potential Adaptation issues.
    Question 5. How have sea-level rise projections been factored into 
your siting decisions for future energy infrastructure?
    Answer. Power plants and transmission lines are designed to take 
into account storm surge and historic flood levels. The Florida 
Department of Environmental Protection is the state agency that would 
review the impact of sea-level on transmission line and power plant 
siting.
     Response of Lisa Polak Edgar to Question From Senator Domenici
    Question 1. In the Energy Policy Act of 2005, we created an 
Electric Reliability Organization to ensure the functionality of 
electric infrastructure. The North American Electric Reliability 
Council reached some troublesome conclusions about the diminishing 
capacity margins across our country in their 2007 Long Term Reliability 
Assessment.
    In your experience, what role does the supply of energy have in the 
reliability of our electric delivery infrastructure and how does it 
compare to the threat posed by weather events?
    Answer. Based on data from the Florida Reliability Coordinating 
Council, Florida electric utilities are planning to maintain reserve 
margins between 20-25%, over the next 10 years. However, Florida is 
heavily dependent on natural gas as a fuel source for generating 
electricity. Any interruption to that supply, whether caused by weather 
events, shortage of fuel supply, or inadequate interstate transmission 
could be problematic. The severe 2004-2005 hurricane season caused 
interruptions to the natural gas supply sources; however, Florida 
electricity generation was not curtailed due to adequate generating 
capacity and fuel supply reserves.
    Achieving a diverse fuel mix is one of the strategic concerns the 
Commission considers when determining whether a new power plant is 
needed to meet future energy demands in Florida. On March 18, 2008, the 
Commission approved the need for Florida Power & Light to build two new 
nuclear generating units and the Commission recently concluded hearings 
on a need determination petition filed by Progress Energy, Florida, for 
two new nuclear units. The Commission has also approved the need for 
Florida Power & Light to increase the generating capacity at two 
existing nuclear units. Renewable generation, conservation, and demand-
side management programs are also an important part of Florida's 
approach to maintaining a balanced and reliable fuel supply.
                                 ______
                                 
     Responses of Terry Wallace to Questions From Senator Bingaman
    Question 1. How have the NISAC findings been applied in a practical 
sense--meaning have you worked with public utilities and other state/
local entities to implement the results of your modeling?
    Answer. LANL has worked and is continuing to work with the 
following utilities and local governments: Sonoma County (CA), 
California Energy Commission, Public Company of New Mexico (PNM) and 
City of Santa Fe. Some of these have resulted in continuing relations.
    Question 2. According to the NISAC findings what critical areas/
issues have been overlooked in recent climate change impact 
discussions?
    Answer. Present dialogue and analyses tend to overlook,
          (-1-) Realistic time and effort necessary for integrating 
        renewable energy into national grid.
    In most cases, energy storage and smart grids would be necessary to 
optimally use power generated by renewable sources. Both the technology 
maturation and supply chain should be carefully examined. It is our 
belief that such analyses have not been carried out to the fullest 
extent.
          (-2-) Social and market response to integration of renewable 
        into the national grid.
    Most likely social response would be governed by projected increase 
in costs per kilowatt-hour; and inflationary impacts on national GDP. 
This may be countered by increase in employment. On the other hand, it 
is difficult to gauge market response. On one hand, policy impacts such 
as carbon-emissions trading may make this approach attractive and on 
the other hand periodicity of wind power introduces major uncertainty 
in pricing approaches.
    Question 3. Are there any severe consequences that we have not yet 
recognized?
    Answer. Land use dynamics. One of the aspects of global warming 
that is often ignored is impacts of more frequent extreme weather 
events (such as hurricanes, intense thunder storms, and long stretches 
of dry seasons). We expect desertification of additional lands in US 
Southwest land and soil erosion in some coastal regions. This could 
lead to substantial reduction on energy reliability due to damage to 
distribution networks (similar to reliability problems encountered due 
to flooding). We believe commercial, technical and social impacts of 
this sort could be studied using NISAC type models, but have so far not 
been analyzed.
                                 ______
                                 
   Responses of Thomas J. Wilbanks to Questions From Senator Bingaman
    Question 1. In your testimony, you mentioned that there may be 
reduced water supplies for power generation and cooling capabilities. 
Have you also considered the impacts to production of liquid 
transportation fuels?
    Answer. This is an interesting question, related to everything from 
oil refining to biomass liquid fuel production. In our review of 
published research for the Climate Change Science Program, we did not 
find open literature publications on this issue, although we know that 
the industry understands petroleum fuel production connections and 
research is under way on biomass liquid fuel production connections. 
Clearly, the question is especially important for regions that are (or 
are expected to be) liquid transportation fuel producers and are also 
projected to face greater water scarcity with climate change.
    Question 2. Of all of the areas studied in the SAC model, which 
coastal area(s) do you feel will be most greatly affected by climate 
change and its impacts? In other words, where should we focus our 
immediate attention?
    Answer. The answer to this question is a matter of personal 
judgment, of course. The most immediate impacts of climate change are 
already being experienced in Alaska; in fact, there is no other U.S. 
region for which weather events will be attributable to climate change 
for some time yet. For near-term impacts, then, the top priority is 
Alaska. For mid-term impacts, e.g., in a 2030-2050 time period, my 
personal judgment is that the region most vulnerable to serious impacts 
is the coastal Southeast, including but not limited to the Gulf Coast. 
A combination of Sun-belt growth, more intense storms, sea-level rise, 
and land subsidence suggests that if there is any U.S. region at risk 
of very serious impacts in that time frame, it is this one. For the 
longer-term, I would add potentials for large-scale flooding in the 
coastal Northeast and risks of freshwater scarcity limiting coastal 
development in the West, unless we are successful in developing 
affordable desalination technologies.
    Question 3. What are the foreseen impacts of climate change on 
Alaska, particularly in regards to oil and gas exploration and 
production?
    Answer. The best current reference on likely impacts of climate 
change on Alaska is the Arctic Climate Impact Assessment (ACIA: http://
www.acia.uaf.edu/pages/scientific.html). According to this 
authoritative source, climate change is likely to have both positive 
and negative effects on oil and gas exploration, production, and 
related markets. Regarding both exploration and production, climate 
change is likely to improve access to resources in presently ice-
covered waters and adjacent land areas. Drawing from Table 18.8, page 
1001, of that study, for exploration reduced sea ice is likely to 
facilitate some off-shore operations but hamper winter seismic work on 
shore-fast ice. Later freeze-up and earlier melting are likely to limit 
the use of ice and snow roads. For production, reduced extent and 
thinner sea ice are likely to allow construction and operation of more 
economical offshore platforms. Storm surges and sea-level rise are 
likely to increase coastal erosion of shore facilities and artificial 
islands. The costs of maintaining infrastructure and minimizing 
environmental impacts are likely to increase as a result of thawing 
permafrost, storm surges, and erosion. For transportation, reduced 
extent and duration of sea and river ice are likely to lengthen the 
shipping season and shorten routes (including trans-polar routes). 
Permafrost thawing is likely to increase pipeline maintenance costs.
   Responses of Thomas J. Wilbanks to Questions From Senator Domenici
    Question 1. Dr. Wilbanks, you discussed as a Western impact the 
increasing levels of competition for water. In terms of their 
individual contributions to the tightening of water supplies, how 
significant do you believe the impacts of climate change are when 
compared with population growth?
    Answer. As you suggest, it is at least as important to be looking 
at driving forces for water demand as at possible reductions in water 
supply. Over the next century, changes in population sizes and 
distributions, economic patterns, technologies, and institutions are 
likely to reshape regional economies and the quality of life more than 
climate change alone. The issue is how climate change will interact 
with these other forces--for instance, the possibility that growing 
regional water scarcity might begin to affect job creation and lead to 
population shifts, or the possibility that significant improvements in 
technologies for efficient use of water might improve prospects to 
adapt to some shrinkages in water supply. A significant challenge for 
climate change science is improving our capacity to project 
socioeconomic scenarios over time periods equivalent to the available 
projections of climate change.
    Question 2. Dr. Wilbanks, your testimony cites research indicating 
that a one degree Celsius increase in temperature would result in 
disproportionate heating and cooling adjustments (5-20 percent increase 
in cooling and 3-15 percent decrease in heating). Can you explain in 
greater detail the disparities between these two adjustments?
    Answer. Thank you for the question. There might be two issues here. 
One is the relatively wide range implied by 5-20 and 3-15. The main 
explanation is that published research studies include a wide range of 
assumptions about such important factors as trends in building 
construction and the rate of market penetration of innovative building 
equipment technologies. Another explanation is that there is some 
uncertainty about what would actually happen. I believe that these 
ranges are useful for policy discussions rather than confusing.
    The other issue is why cooling demands are somewhat more sensitive 
to a temperature change than warming demands. The main explanation for 
this is simply a scale factor: nationally, we consume substantially 
more energy to warm buildings in the United States than to cool them. 
An assumed change in a driving force is likely to affect a smaller base 
more in percentage terms than a larger base. One part of this 
explanation is that there are many areas in the northern parts of the 
U.S. where summer air-conditioning of buildings is less universal than 
in the south. A relatively small increase in summer heat indexes might 
stimulate a considerable increase in the market penetration of air-
conditioning in these areas.
    Question 3. Dr. Wilbanks, your testimony alludes to the existence 
of some positive impacts on energy production and infrastructure that 
could result from climate change. Can you explain in greater detail 
what these might be?
    Answer. There are several kinds of impacts that might be considered 
positive. One example is easier access to oil and gas reserves in areas 
now covered by ice in Alaska, along with easier trans-polar 
transportation by tanker. Another is actions to reduce vulnerabilities 
to climate change that also reduce vulnerabilities to impacts of 
climate variability, such as exposures to coastal hurricanes. A third 
is that attention to climate change risks and vulnerabilities may 
increase attention to embedded issues that are important with or 
without climate change, such as the ``energy-water nexus.'' A fourth is 
the potential that U.S. responses to concerns about climate change 
might include the development and demonstration of energy technologies 
that improve our competitiveness in a greening global energy technology 
marketplace. One responsibility that we all share as policymakers, 
scientists, and citizens is responding to challenges such a climate 
change in ways that create opportunities as well as problems.
    Responses of Thomas J. Wilbanks to Questions From Senator Akaka
    Question 1. Your testimony states: ``Finally, climate change could 
have effects on renewable energy alternatives other than hydropower, 
such as biomass energy, windpower, and solar energy. Currently 
available research does not tell us enough to draw firm conclusions 
about this topic, but it is important for us to improve the information 
available for energy decision-making in this regard.''
    Question 2. Hawaii relies on imported oil for 90% of its energy 
needs, and is continually seeking alternative, sustainable, and clean 
energy sources. Marine and hydrokinetic energy is an alternative energy 
source that is of particular interest to me. Can you elaborate on the 
aforementioned excerpt? By excluding hydropower, are you implying that 
it is resilient to climate change impacts?
    Answer. Thank you for your question and your interest in this 
topic. Earlier in my testimony, I indicated that hydropower is the only 
renewable energy system for which climate change impacts have been 
projected by a body of published research. Hydropower potentials are 
almost certain to be affected in some regions by diminished mountain 
snowfalls, at least in the longer run. This is a significant energy 
supply issue for the American West.
    Marine and hydrokinetic energy is an alternative of particular 
interest to many island states and nations, and effects of climate 
change on ocean currents, storm patterns, and the sea level are likely 
to affect evaluations of potentials for this alternative. In our 
summary of existing research for the Climate Change Science Program, we 
did not find analyses of such effects, but I would agree that such 
analyses should be carried out.
    More generally, it appears that in many instances island states and 
nations have the potential to serve as ``test-beds'' for innovative 
uses of renewable energy and energy efficiency improvement strategies, 
because their energy costs tend to be relatively high and their ability 
to demonstrate locally-appropriate smaller-scale energy alternatives is 
also relatively high. We should be working actively with island states 
and nations to realize their potentials to become the leaders in 
exploring clean energy pathways for the world's future. I have 
personally been involved in USAID-supported explorations of this 
potential in the Caribbean, and the results were very encouraging. 
Another current target of opportunity might be DOD's current interest 
in Guam, where local leaders are asking about longer-term benefits to 
their economy that are not dependent on U.S. defense expenditures. 
Helping them to develop leadership positions in their region related to 
clean energy options for island nations might be one answer.
                                 ______
                                 
       Responses of Ted Falgout to Question From Senator Bingaman
    Question 1. In terms of the climate change impacts to coastal 
wetlands, the stabilization of wetlands in the Port Fourchon area is 
critical to maintaining a strong and secure energy infrastructure. The 
subsidence and sediment loss that has occurred in the past several 
decades has resulted in a fairly significant loss of wetlands in 
Louisiana's gulf coast. Have any of the restoration efforts been 
successful in stabilizing erosion in the critical energy corridor that 
you mentioned in your testimony?
    Answer. There have been numerous small scale efforts to protect 
some of the most vulnerable areas of the corridor. Most have been very 
successful, but are not nearly to the scale necessary to match the 
problem. For instance, at the Port, we have installed offshore 
breakwaters that have performed masterfully along the shoreline. We 
have also utilized all of our dredge material from channel maintenance 
for marsh restoration and beach nourishment. We have also conducted our 
mitigation from Port impacts in a manner that protects the port and 
helps to insure sustainability. We are quite capable of sustaining the 
Port well out into the future with the tools we are currently using in 
this relatively small area.
    Where the major problem lies is the 17 mile stretch between the 
Port and the Hurricane Protection Levee System. This expansive area has 
limited sources of sediment and is rapidly eroding into open water. It 
is probably too far deteriorated to save, even with very aggressive 
restoration efforts will be challenged in this reach. This is the reach 
that the single road (LA1) is becoming exposed to open water and its 
vulnerability is increasing daily. All agree that in this particular 
area, the only cost effective way to insure access to the Port is to 
build a bridge. This is precisely what we are doing, but have exhausted 
our funding and are only half way there. What I have tried to convey, 
is that this highway is one of, if not the most, significant pieces of 
energy infrastructure in this country and to have it in the condition 
it is in is flirting with disaster.
    From the Hurricane Levee inland, numerous small scale restoration 
efforts have been successful and prove that this stretch of the 
corridor is sustainable if we act soon. A multiple lines of defense 
system will work well in this stretch. This would involve Barrier 
Island restoration, rebuilding marsh in the mid basin by long distance 
delivery of dredge sediments, increased levee protection and long term 
sustainability achieved by major diversions from the Mississippi River 
into the Barataria and Terrebonne Basins.
                                 ______
                                 
    Responses of Virginia Burkett to Questions From Senator Bingaman
    Question 1. In your testimony, you mention the two remaining phases 
to be undertaken related to climate change impacts to infrastructure. 
When will the next phase commence? Will phase II only focus on roads, 
or will it also include energy-related transportation, such as 
pipelines for liquid fuel transportation and electrical transmission 
lines?
    Answer. According to the discussions USGS has had with DOT, the 
second phase of this work will involve an in-depth study of risks to 
transportation at one or more selected locations in the central Gulf 
Coast region. It is expected to include a structural and operational 
assessment, and socio-economic analysis on the local, regional and 
national importance of the transportation services. Phase 2 is also 
anticipated to fully develop the risk assessment approach toward 
transportation decision-making under uncertain conditions that was 
begun in phase 1. Yes, this phase is expected to cover all aspects of 
transportation, and in the Central Gulf Coast region, including the 
energy sector to the extent possible. Since many of the pipelines and 
much of the information is proprietary, analysis of specific energy 
facilities is frequently more difficult. The third phase will identify 
and analyze adaptation and response strategies and produce tools to 
help communities and states implement successful adaptation. The timing 
of phases 2 and 3 is dependent upon funding availability within the US 
Department of Transportation, but we anticipate that phase two will 
begin in Fiscal Year 2009.
    Question 2. What other regions, coastal or otherwise, have the 
greatest need for a comprehensive study of climate change impacts?
    Answer. The 2007 report of the Intergovernmental panel on Climate 
Change (IPCC) reveals numerous hot spots of societal or ecological 
vulnerability in the United States, including the entire state of 
Alaska, low-lying sedimentary coastlines (such as the Mississippi River 
Delta and the Gulf and South Atlantic coasts), arid regions (because of 
the projected decline in rainfall in the southwestern United States), 
western mountain regions, coral reefs and small islands (including 
Hawaii and the U.S. protected islands and freely associated states in 
the Pacific), heavily populated coastal areas (such as New York City 
and Miami), the Great Lakes region, and several dozen other geographic 
regions of America. A methodical, comprehensive, routinely updated, 
border-to-border national assessment program is needed because all 
areas of the country will be impacted in some way by climate change. A 
climate change impacts and adaptation program would enable our country 
to minimize the adverse effects of climate change while allowing us at 
the same time to take advantage of any benefits that it might offer.
    Question 3. Is there any intent or plan to expand these research 
efforts to other regions of the U.S.?
    Answer. Yes, the U.S. Climate Change Science program has a 
strategic plan that will expand this type of research to other areas of 
the country. The U.S. Department of Transportation is planning to 
expand its research efforts to other parts of the United States and is 
already working on a similar project in the mid-Atlantic region.
     Responses of Virginia Burkett to Questions From Senator Akaka
    Question 1. Your testimony warns of a rise in sea-level by 2050, 
which will vary between 2 to 4 feet, on the coastline extending from 
Mobile, AL to Houston/Galveston, TX. Do you have similar analyses that 
apply to the islands of Hawaii and the U.S. territories? If so, can you 
please provide the data?
    Answer. We have not conducted the same level of assessment for the 
islands of Hawaii or the U.S. island territories, though this would 
certainly be possible. The U.S. Geological Survey has, however, 
conducted assessments of the vulnerability to sea level rise for the 
Kaloko-Honokohau National Historic Park (in Hawaii) and the National 
Park of American Samoa (NPSA) (see attachments).
    Question 2. The impact of climate change on the ocean is of 
particular concern to Hawaii. Hawaii is disproportionately susceptible 
to increases in sea-level rise and ocean temperature, which jeopardize 
public safety, economic development, cultural resources, and the health 
of our unique island ecosystems and wildlife. Are you aware of future 
studies, either by USGS or other agencies that recognize the unique 
characteristics of islands (compared to the continental U.S.) and 
explore the impacts of climate change on the sea-level rise and ocean 
temperature on Hawaii and the U.S. territories?
    Answer. The USGS and the National Oceanic Atmospheric 
Administration are jointly planning a coastal impacts and adaptation 
program that will have an island component. Such a program should 
entail an assessment of impacts for all U.S. coastal areas and 
potential adaptation strategies, which could widely vary among coastal 
types. The Small Island chapters of the past two IPCC assessment 
reports (2001 and 2007) broadly characterize the unique vulnerability 
of small islands. However, there are still many unknowns concerning the 
potential impacts of climate change on small islands-even though there 
is a strong scientific consensus that they are among the most 
vulnerable regions to climate change.
    Currently, the USGS is partnering with NOAA, the University of 
Hawaii, the University of Colorado, and the International Pacific 
Research Center to develop high-resolution climate change projections 
for Hawaii. These projections can then be used to model how native 
Hawaiian ecosystems, freshwater stream flows, invasive species, and 
coastal communities might be affected by changes in rainfall patterns, 
increased sea level, and increasing temperatures.
    Data and information results from these research efforts would help 
stimulate new projects designed to identify management options for 
decision-makers to mitigate the impacts of future climate change.

                                    

      

</pre></body></html>
